<html>
<title> - FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON ARMY GROUND FORCE ACQUISITION PROGRAMS STATEMENTS PRESENTED BY MEMBERS OF CONGRESS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-46]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2008

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                AIR AND LAND FORCES SUBCOMMITTEE HEARING

                                   ON

        BUDGET REQUEST ON ARMY GROUND FORCE ACQUISITION PROGRAMS

                               __________

                              HEARING HELD
                             MARCH 27, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                  U.S. GOVERNMENT PRINTING OFFICE
43-666                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
  

                    AIR AND LAND FORCES SUBCOMMITTEE

                   NEIL ABERCROMBIE, Hawaii, Chairman
JOHN SPRATT, South Carolina          JIM SAXTON, New Jersey
SOLOMON P. ORTIZ, Texas              HOWARD P. ``BUCK'' McKEON, 
SILVESTRE REYES, Texas                   California
ADAM SMITH, Washington               JEFF MILLER, Florida
MIKE McINTYRE, North Carolina        JOE WILSON, South Carolina
ELLEN O. TAUSCHER, California        FRANK A. LoBIONDO, New Jersey
ROBERT A. BRADY, Pennsylvania        TOM COLE, Oklahoma
JIM MARSHALL, Georgia                ROB BISHOP, Utah
DAN BOREN, Oklahoma                  MICHAEL TURNER, Ohio
HANK JOHNSON, Georgia                CANDICE S. MILLER, Michigan
JOE SESTAK, Pennsylvania             PHIL GINGREY, Georgia
GABRIELLE GIFFORDS, Arizona          CATHY McMORRIS RODGERS, Washington
KENDRICK B. MEEK, Florida            GEOFF DAVIS, Kentucky
KATHY CASTOR, Florida                W. TODD AKIN, Missouri
                  Doug Bush, Professional Staff Member
                 John Wason, Professional Staff Member
                       Ben Kohr, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Tuesday, March 27, 2007, Fiscal Year 2008 National Defense 
  Authorization Act--Budget Request on Army Ground Force 
  Acquisition Programs...........................................     1

Appendix:

Tuesday, March 27, 2007..........................................    45
                              ----------                              

                        TUESDAY, MARCH 27, 2007
 
FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
                 ARMY GROUND FORCE ACQUISITION PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Abercrombie, Hon. Neil, a Representative from Hawaii, Chairman, 
  Air and Land Forces Subcommittee...............................     1
Saxton, Hon. Jim, a Representative from New Jersey, Ranking 
  Member, Air and Land Forces Subcommittee.......................     3

                               WITNESSES

Bolton, Claude M., Jr., Assistant Secretary of the Army for 
  Acquisition, Logistics and Technology, Department of the Army..     7
Curran, Lt. Gen. John M., USA, Deputy Commanding General--
  Futures, and Director, Army Capabilities Integration Center, 
  U.S. Army Training and Doctrine Command........................    11
Finley, Dr. James I., Deputy Under Secretary of Defense for 
  Acquisition and Technology.....................................     5
Francis, Paul L., Director, Acquisition and Sourcing Management, 
  Government Accountability Office...............................     9

                                APPENDIX

Prepared Statements:

    Bolton, Claude M., Jr., joint with Lt. Gen. John M. Curran...    58
    Finley, Dr. James I..........................................    49
    Francis, Paul L..............................................    79

Documents Submitted for the Record:

    We Can't Win If We Don't Know the Enemy, Sunday, March 25, 
      2007, by Bruce Hoffman. Submitted by Mr. Saxton............    99

Questions and Answers Submitted for the Record:

    Mr. Abercrombie..............................................   105
    Mr. Bishop...................................................   115
    Ms. Castor...................................................   117
    Mr. Johnson..................................................   115
    Mr. Meek.....................................................   116
    Mr. Saxton...................................................   110
    Mr. Sestak...................................................   116

FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
                 ARMY GROUND FORCE ACQUISITION PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Air and Land Forces Subcommittee,
                           Washington, DC, Tuesday, March 27, 2007.
    The subcommittee met, pursuant to call, at 10 a.m., in room 
2118, Rayburn House Office Building, Hon. Neil Abercrombie 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. NEIL ABERCROMBIE, A REPRESENTATIVE 
    FROM HAWAII, CHAIRMAN, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Abercrombie. Good morning. Aloha, everybody. Thank you 
very much for coming. Thanks to our panel.
    I will give a brief opening statement, and Mr. Saxton will, 
and then we will go to summaries.
    I will say at the beginning that all statements will be 
accepted in full. If we can go to summaries so we can get to 
questions and observations for members' purposes and for those 
in the audience, and also for the panel--you don't necessarily 
have to answer questions.
    You might want to comment and make observations as well. 
Same for the members. That sometimes can be as illuminating or 
more illuminating than questions per se.
    The Air and Land Forces Subcommittee meets today to receive 
testimony from the U.S. Army's 2008 procurement and research 
and development budget. The panel includes witnesses from the 
Office of the Secretary of Defense (OSD), the Department of the 
Army and the Government Accountability Office (GAO).
    In terms of overall funding, the Army's requested 
investment budget for 2008 is $34.4 billion. This went up by $7 
billion compared to the 2007 base budget level. That was the 
Army's requested budget as of the time we received it.
    Now, you may want to modify that in testimony today.
    The Army also received $10 billion more in procurement 
funds in the so-called bridge supplemental passed last fall and 
will likely receive another $15 billion in the supplemental 
appropriations bill passed by the House last week, if it goes 
forward.
    I want to add parenthetically, Secretary Bolton, we are now 
seeing what the difficulties are when the military becomes 
dependent on supplemental budgets.
    As I hope everyone knows, what our committee is going to 
try and do is move as much as should be in the regular defense 
authorization and subsequent appropriations bills as possible 
for 2008, try to avoid as much as possible, other than what is 
truly emergency and truly supplemental, going in such a bill, 
because I believe that the politics of the supplemental bill 
which we did pass last week is such that you are going to be 
fortunate if that bill appears before September or October.
    And funding which may otherwise have been counted on then 
gets--it doesn't come forward. The politics of it now are 
difficult. There is now even talk of vetoes, and then it has to 
come back, and so on and so forth--and negotiations.
    So I hope that you will agree, Mr. Secretary, and that by 
extension the armed forces and eventually the administration 
will agree, that it is best to try and work with the committees 
in regular order with the authorization bill as much as humanly 
possible, to address some of the pressing issues, particularly 
regarding readiness.
    Despite all this additional funding, then, the Army has 
also presented an $11 billion list of unfunded requirements 
along with its 2008 budget. And if my understanding from our 
meeting yesterday was correct, there may be even more.
    So therefore, the context of today's hearing is complex. It 
involves multiple budgets. It involves multiple considerations 
for funding.
    The Army is currently fighting in two wars, both of 
uncertain duration and high cost. And the Nation is not 
mobilized from an economic or manufacturing or industrial base 
standpoint, and I might say from a psychological standpoint, 
too, at least in my judgment.
    The American people as a whole have been asked to sacrifice 
very little to pay for these wars or to deal with these wars. I 
do not consider taking off your shoes in an airport a 
sacrifice. It is at best an inconvenience.
    As far as I am concerned, the only sacrifice we have made 
since 9/11 has been postponing the Super Bowl one week in 2001. 
Instead, the military community of troops and their families 
are the ones being asked to carry this heavy burden for the 
rest of us. Everybody else is watching it on television.
    The final and most important issue through which the 2008 
budget must be considered is, as I have mentioned, the rapidly 
declining Army readiness. In order to equip the troops in Iraq 
and Afghanistan with the essentials, the rest of the Army has 
been stripped of equipment and funding, leaving the Nation with 
no strategic ground force reserve, for all intents and 
purposes.
    In particular, the Army National Guard and the Army Reserve 
have serious readiness problems, much of which is due to lack 
of critical equipment. Fixing this serious readiness problem 
will be a major focus of the subcommittee's work.
    I might add, again, parenthetically, when I say 
subcommittee's work, we speak of the whole subcommittee. We 
don't make divisions on party lines on this subcommittee, I can 
assure you.
    We will focus on the 2008 authorization bill and exercise 
our best judgment which you will help us to make with your 
testimony and your commentary and observations not only today 
but in days to come, as we come to grips with it.
    And I assure you we will be calling on you, and I hope you 
will not hesitate to give us the benefit of your judgment, 
opinions and perspective at any point as the notion strikes 
you.
    We work in a bipartisan manner. We are going to do 
everything we can to improve the Army's future readiness. I 
know that is Mr. Saxton's commitment, certainly mine and all 
the subcommittee members.
    Given this context, the major issue facing the subcommittee 
is not the relative merits of one program over another, as 
important as any one of them may be.
    Instead, the major issue the subcommittee and the Congress 
must consider is how to ensure the Army as a whole remains 
ready to do the missions we assign it.
    The exact nature of these future missions is unclear, but 
one thing is clear. Army units cannot be ready if they don't 
have the equipment they are required to have, if they don't 
have the training they are required to have, if they don't have 
the full complement of personnel they are required to have, 
commensurate with the various doctrines that the Army is 
pursuing.
    It is this subcommittee's charter to ensure that the Army's 
soldiers do have what they need. Since funding is not 
unlimited, this will require many tough choices between 
improving the near-term readiness of the Army and working on 
the weapons systems of the future.
    The witnesses have been asked to provide testimony on some 
of the Army's major procurement and development programs, 
including the Future Combat System (FCS), the Army Modular 
Force Initiative, upgrades to the Army's three major ground 
combats--the M1 tank, the M2 Bradley and the Stryker vehicle--
and selected Army communications systems.
    In addition, the hearing memorandum for members, if you 
haven't had a chance to go through it as yet, does include 
detailed information on the Army's various force protection 
equipment programs that our witnesses will also address in 
context.
    And with that, I will go to my good friend and colleague, 
my mentor through many other committee assignments not only 
here but in the Readiness Subcommittee, Mr. Saxton.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE FROM NEW JERSEY, 
        RANKING MEMBER, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Saxton. Mr. Chairman, thank you very much. I would just 
like to begin this morning by building on some of the things 
that you have correctly noted in your opening testimony.
    I have a friend who is recently back from Iraq, and he 
calls me often and says we need to get our country on a war 
footing.
    Now, that is, I believe, where you were headed in the 
opening part of your statement when you said that we are 
neither psychologically nor industrially mobilized to do the 
job that we need to do.
    And I would go on further to point out that historically, 
when we find ourselves in dangerous international situations, 
we find it important enough to increase our percentage of 
military spending far beyond what it is today.
    During World War II, we spent 34 percent of gross domestic 
product (GDP) on national security. During the Korean War, we 
were at about 10 percent. During the Reagan buildup, we built 
back up--after we had fallen very low, we built back up to 6 
percent.
    And today, after the decade of the 1990's when we went down 
to 3 percent, we are built back up to 3.8 percent.
    And I would just make the point, Mr. Chairman, that after--
by the way, I should have started by thanking the gentlemen at 
the table for spending so much time with you and me yesterday, 
because it was a very enlightening set of meetings that we had.
    And subsequent to those meetings, understanding the 
potential for the subject that we are here to discuss this 
morning--that is, the Future Combat System--and the need to 
move as efficiently as possible in that direction, it might be 
good to look at this 3.8--our current situation, those elements 
that you noted, Mr. Chairman, the psychological and industrial 
preparedness of our country, and look at that 3.8 percent and 
see if we want to address that issue, of course, with the 
administration.
    As the chairman also pointed out, our job here is to see 
that soldiers have what they need. That is important.
    And in order to determine what it is our soldiers need, we 
need to know something about our enemy, which brings me to an 
article which I found on my chair this morning when I came in 
my office.
    It was sent to me by our great friend and colleague, Mac 
Thornberry, who apparently found this article in the--it was 
written by a fellow by the name of Bruce Hoffman, and Hoffman 
says, ``We can't win if we don't know the enemy.''
    And it says that--it starts out by quoting China's Sun Tzu. 
``If you know the enemy,'' he says, ``and know yourself, you 
need not fear the results of 100 battles.'' But we have plenty 
to fear if we don't know the enemy.
    ``Military tactics are doomed,'' he goes on, ``to failure 
when they are applied without sophisticated knowledge of the 
enemy being pursued, of how the enemy thinks, and therefore how 
he is likely to respond or adapt to tactics used against him.''
    So as we consider the potential of the Future Combat 
System, we need to keep clearly in mind that we need to know 
what it is that we are up against, the nature of our enemy, and 
how a future combat system will be employed in order to defeat 
that enemy. That is tricky business, but that is what we are 
here to discuss today.
    I would just conclude with this. In 1990, the Secretary of 
Defense came here in this room before this committee and he 
said, ``I have got good news and bad news.'' He said, ``The 
good news is the Soviet Union is going to go away.'' He said, 
``The bad news is, ``The threat isn't. It is just going to 
change.''
    I would say that in my time here, since 1990, we have 
watched that change as it has happened. We have not adequately 
seen that change and understand that change before it happened.
    We need to learn a lesson from the last decade and look at 
the change that will happen in the next decade before it does 
happen. That is what Future Combat System is about. At least I 
believe that is what it is about, so that we have a combat 
system in the future to meet the future threat. And therefore, 
we need to define what that threat is.
    So with your help today, both in terms of where you have 
been, in terms of developing technologies, and your knowledge 
of the future threat, hopefully we will begin to walk down that 
road.
    Thank you very much.
    Mr. Abercrombie. Thank you very much.
    Mr. Saxton, would you like that article distributed to the 
members?
    Mr. Saxton. Yes, that would be most helpful.
    [The information referred to can be found in the Appendix 
on page 99.]
    Mr. Abercrombie. We will take care of that.
    We will move now to the panel's testimony and then go 
directly to members' questions in reverse order of seniority 
today.
    First will be Dr. Finley, James Finley, the Deputy Under 
Secretary of Defense for Acquisition, Technology and Logistics 
(AT&L).
    He will be followed by Mr. Bolton, Secretary Bolton, the 
Assistant Secretary of the Army for Acquisition, Technology and 
Logistics.
    Then Mr. Francis, Paul Francis, the Director of Acquisition 
and Sourcing Management, the Government Accountability Office.
    And will you be testifying, General Curran?
    General Curran. Yes, sir, I will.
    Mr. Abercrombie. Okay. Then you will follow after Mr. 
Francis.
    General Curran. Thank you, Mr. Chairman.
    Mr. Abercrombie. I wasn't sure whether you were going to be 
backing up or testifying--Deputy Commander of the U.S. Army 
Training and Doctrine Command.
    As I indicated, without objection, all witnesses' testimony 
and statements will be included in the hearing record. So if we 
could get to summaries of what is there, we will then move on 
to the questions and commentary.
    We will start with Dr. Finley.
    Welcome and aloha, Dr. Finley. Thank you for coming.

  STATEMENT OF DR. JAMES I. FINLEY, DEPUTY UNDER SECRETARY OF 
             DEFENSE FOR ACQUISITION AND TECHNOLOGY

    Dr. Finley. Thank you, Mr. Chairman. We are delighted to be 
here today.
    And thank you again, Ranking Member Saxton, for having 
lunch with you yesterday. It was an extremely informative lunch 
for me personally.
    Chairman Abercrombie, Ranking Member Saxton and members of 
the committee, thank you for the opportunity to discuss the 
Army's ground force programs requested in the President's 
fiscal year 2008 budget.
    As you know, the Army is involved in a total 
transformation. It includes not only the structure of the force 
and personnel, but also the equipment and systems that are 
necessary to support our 21st century national security goals 
and missions.
    A critical piece of this transformation effort is the 
Future Combat Systems. We are currently engaged with an enemy 
who is thinking and adapting to our every advance. We must 
counter with systems and equipment that enhance our 
warfighters' capabilities in theater.
    This allows the Army to modernize while bringing leading-
edge technology to the battlefield. We fully support the 
President's request of $3.7 billion for FCS for research, 
development and testing and evaluation of this program. This is 
a program of vital importance to the Army and our warfighter.
    We also continue to work collaboratively with the Army on 
Joint Network Node (JNN) Program and the Warfighter Information 
Network Tactical (WIN-T) Program. Today, I will provide an 
update for you of the progress made for the FCS JNN and WIN-T 
programs.
    The fiscal year 2008 budget for FCS funds the acquisition 
and fielding of communications, force protection and mobility 
equipment needed to support current and future operations.
    Investments balance both near-term and long-term 
modernization requirements. For the near term, the FCS program 
provides the technology to increase networking combat 
capability for current Army brigade combat teams through a 
spin-out approach.
    That approach exploits new technologies as soon as possible 
to enhance current capabilities.
    Currently, development of FCS for the brigade combat teams 
continues. The Army plans to replace 15 of the Army's heavy 
brigade combat teams with FCS.
    The department is committed to balancing our investment in 
FCS by aligning operational requirements, technology readiness 
and affordability for both the near-term and long-term 
decision-making.
    The affordability of the FCS program in conjunction with 
overall Army top-line priorities, continues to be an area of 
attention for the Army and the department.
    The department also continues to work collaboratively with 
the Army on developing and delivering improved network 
capability to our warfighters.
    Programs such as FCS, JNN and WIN-T are all vital 
contributors to increasing the survivability of those 
warfighters.
    We continue to look for ways to identify, develop and 
deliver network capabilities sooner to the force. Flexibility 
and agility in our acquisition process is critical to 
expeditiously and cost-effectively equip our ground forces.
    The Army's transformation effort, including our Army 
Modularity and the FCS program, requires a disciplined yet 
agile acquisition construct. The ability to track cost, 
schedule and performance is the centerpiece of the system-to-
systems concept for acquisition.
    The department has embarked on a number of initiatives to 
ensure disciplined yet agile acquisition of capability for our 
warfighters.
    These initiatives include tri-chaired concept decision 
reviews, time to find acquisition and risk management tools.
    In closing, I believe that the department and the Army are 
working together and making progress. These FCS and network 
communication capabilities are giving our warfighters the best 
systems and support in the world, to help them meet their 
operational goals and missions.
    Through our advances in science and technology, we are also 
helping modernize the Army and develop the future of ground 
combat. We fully support the President's fiscal 2008 budget 
request for ground forces capabilities.
    I thank the committee for their time today and their 
leadership in addressing the Army's operational needs. This 
committee has consistently provided our men and women in armed 
forces with the systems and support they need.
    Thank you for your unwavering support to our warfighters. I 
will be happy to answer any questions.
    [The prepared statement of Dr. Finley can be found in the 
Appendix on page 49.]
    Mr. Abercrombie. Thank you very much, Dr. Finley.
    Secretary Bolton.

STATEMENT OF CLAUDE M. BOLTON, JR., ASSISTANT SECRETARY OF THE 
 ARMY FOR ACQUISITION, LOGISTICS AND TECHNOLOGY, DEPARTMENT OF 
                            THE ARMY

    Secretary Bolton. Aloha and good morning, Chairman 
Abercrombie, Congressman Saxton, distinguished subcommittee 
members. Thank you for this opportunity to appear before you to 
discuss the Army's ground force programs.
    With me today is Lieutenant General Mark Curran, the Deputy 
Commanding General--Futures, and Director of the Army's 
Capability Integration Center at the Training and Doctrine 
Command.
    Mr. Chairman, the Army is transitioning continuously from 
the current to the future force through combined effects of 
transformation and modernization.
    The main focus of transformation is modular conversion. The 
main focus of modernization is the Future Combat System, or 
FCS.
    We are very proud of this program. FCS is the most complex 
weapons procurement ever managed by the Army, and I am pleased 
to report to you that the FCS program remains on contract cost, 
schedule and performing to plan.
    Our success is not without sacrifice. The FCS program has 
sustained three significant and consecutive budget cuts. We 
recently made program adjustments informed by operation 
analysis and fiscal reality, so the Army will continue to have 
an affordable and executable FCS strategy.
    With FCS, the Army takes advantage of technologies as they 
develop and quickly gets these technologies in the hands of 
soldiers.
    With your continued support, our brigade combat teams (BCT) 
will regularly be enhanced by the insertion of FCS 
technologies.
    Mr. Chairman, it is imperative that the FCS program receive 
full funding so we can stay on schedule to deliver spin-out one 
network systems to the Army's evaluation task force in 2008, 
along with the deliveries of the manned ground vehicle--early--
non-line-of-sight (NLOS) cannon.
    FCS and the Army recently and successfully--in fact, I 
would like to state very successfully--completed the first live 
fire soldier exercise, Experiment 1.1, involving FCS 
technologies and equipment, the combination of an eight-month 
demonstration that took place at Fort Bliss, Texas, the White 
Sands Missile Range, New Mexico and Huntington Beach, 
California.
    This exercise was the first step in accelerating the 
delivery of key FCS capabilities to the current force. A 
platoon of 36 soldiers participated in this exercise. It 
involved a mock urban assault recently carried out in the real 
world by U.S. forces in Iraq.
    The soldiers attacked the target and then cleared out 
several buildings that were infested with insurgents. However, 
unlike today's soldiers, the soldiers using the FCS equipment 
were empowered by the FCS network.
    The soldiers participating in the exercise had a great 
advantage because they had a suite of new network capabilities 
that reduced soldier risk, increased soldier awareness and 
battlefield understanding, and enhanced the overall 
effectiveness of the mission.
    The exercise was such a success that I brought with me one 
of the soldiers I met there to help you gain a better 
understanding of the capabilities the FCS brings to the 
battlefield.
    With me today is Sergeant 1st Class Nicholas Barnes. 
Originally from Richmond, Virginia, Sergeant Barnes is a motor 
instructor in the 29th Training Brigade at Fort Benning, 
Georgia. He is a combat veteran who served two tours of duty in 
Afghanistan with the 3rd Battalion, 75th Ranger Regiment. He is 
one of America's finest.
    And with your indulgence, Mr. Chairman, I would like to 
thank him publicly for his outstanding service to our Nation.
    [Applause.]
    Mr. Abercrombie. Welcome. Aloha. Thank you for coming.
    Secretary Bolton. What I would like to show you now, with 
the help of Sergeant Barnes, is a few representations of the 
FCS so you can see firsthand how far this program has 
progressed.
    First, let's start at the end of the table there with the 
small unmanned ground vehicle. And the Army has to have a lot 
of acronyms. That is a SUGV.
    Mr. Abercrombie. Yes. Mr. Bolton, with your permission, if 
you will say what everything is as opposed to just using the 
acronyms, that would be helpful for those not familiar with it 
all.
    Secretary Bolton. Yes, sir. Small unmanned ground vehicle.
    Next is a Class 1 unmanned aerial vehicle. It is 
lightweight and carries a JTRS communication package with it.
    Next to that are----
    Mr. Abercrombie. And the JTRS communication package would 
be?
    Secretary Bolton. The Joint Tactical Radio Systems radio, 
sir. Thank you.
    Mr. Abercrombie. Very good. You did that looking me right 
in the eye. Thank you. I appreciate it.
    Secretary Bolton. Next, we have the unattended ground 
sensors. There is a tactical sensor, and these are implanted in 
the ground.
    And then next to that are the urban unattended ground 
sensors, and these are placed in buildings.
    And finally, an early version of the Joint Tactical Radio 
System radios. All this equipment was used during the exercise. 
And much of this equipment, particularly the radios on the end, 
will be going in to our Abrams, our Bradley fighting vehicles 
and our Humvees.
    Now, Sergeant Barnes will be here at the conclusion of this 
hearing if members would like to take a closer look at the 
equipment and discuss it a bit more.
    In the words of our soldiers, and I think Sergeant Barnes 
would back me up on this, FCS network systems provided them 
with the capability they need today and in the future.
    With full funding, we can capitalize on this positive 
momentum and bring this capability to the field rapidly.
    Before I conclude my remarks, Mr. Chairman, I would like to 
highlight an issue of grave concern to me, and that is the 
declining number of people in the Army acquisition workforce 
and the knowledge that this workforce has that is literally 
walking out the door with each retirement.
    Within the next three years, nearly half of the remaining 
civilian workforce will be eligible for retirement. And as the 
workforce declines, the workload increases.
    I just wanted to bring that to your attention, Mr. 
Chairman, because it is an issue of some urgency, and we in the 
Army are doing what we can to mitigate the impacts to all of 
our programs, current and future.
    That concludes my opening remarks, Mr. Chairman. I want to 
thank the committee again and Congressman Saxton for their 
outstanding support of the Army over the years and for the 
continuing wisdom, guidance and steadfast support.
    I look forward to your questions.
    [The joint prepared statement of Secretary Bolton and 
General Curran can be found in the Appendix on page 58.]
    Mr. Abercrombie. Thank you, Secretary Bolton.
    Mr. Francis, you are next, and then General Curran.

    STATEMENT OF PAUL L. FRANCIS, DIRECTOR, ACQUISITION AND 
     SOURCING MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Francis. Thank you, Mr. Chairman.
    Good morning, Mr. Chairman, Mr. Saxton and members of the 
subcommittee. I am pleased to be here today to discuss the 
business case and business arrangements for FCS.
    When FCS was approved in 2003, it was far from having a 
sound business case, especially given its unprecedented size 
and complexity.
    Since then, there have been several improvements in the 
program. The schedule has been lengthened to allow for more 
demonstrations and to spin capabilities out to current forces.
    Requirements are better understood, even at the system 
level. Technologies have gotten more mature, and cost estimates 
have grown substantially, which I think makes them more 
realistic.
    Still, it is four years later, and progress should be 
expected. The Army, doing well by its own measures, is well 
behind business case measures. Requirements are still being 
defined. Technologies are years away from full maturity.
    Key demonstrations of FCS performance will not be completed 
until after the production decision. And an independent cost 
estimate puts FCS costs between $203 billion and $234 billion, 
substantially higher than the Army's estimate.
    Still, production funding for FCS starts in fiscal year 
2008 and will reach about $3.3 billion by 2012, the year before 
the production decision. When you add in the production cost of 
the spin-outs, that total will be $5.2 billion in production 
funds before the production decision.
    The 2009 go/no-go decision, which this subcommittee took 
the lead on, is a key juncture for which there should be enough 
demonstrated knowledge to make an informed decision about FCS' 
future.
    In our March 2007 report, we stated that it was important 
for criteria, as quantifiable as possible and consistent with 
best practices, be established now to evaluate the sufficiency 
of knowledge.
    We recommended specific criteria that should be included in 
DOD's evaluation. We also recommended DOD analyze alternatives 
should FCS be judged unable to deliver needed capabilities 
within reasonable costs and time frames.
    To achieve its goals for FCS, the Army employed a lead 
system integrator, or LSI, to assist in defining, developing 
and integrating the FCS.
    The Army's decision was framed by two factors--first, the 
ambitious goals of the program, and second, the Army's limited 
capacity to manage it.
    The Army also sought to increase competition at lower 
supply levels and to create incentives for getting best effort 
during development. The Army's contract with the LSI defines a 
partner-like relationship and provides incentives for 
performance.
    Our concerns about the business case aside, the contract 
and the relationship with the LSI are both consistent with the 
Army's vision for FCS and candid with respect to its workforce 
limitations.
    In forging such a relationship with the LSI, the Army 
sought to gain managerial advantages such as real-time or agile 
decision-making.
    One must also recognize the risks and limitations of the 
business arrangements. In practice, the Army is more involved 
with decisions a contractor might normally make, and the 
contractor is more involved with decisions the Army might 
normally make.
    Requirements and specifications are being revised as the 
solution is being developed. Over time, the government can 
become increasingly vested in the results of shared decisions 
which, in light of the significance of the program, can pose 
risks for conducting oversight over the long term.
    This is not to say that the level of collaboration is 
inherently improper, but rather that it may have unintended 
consequences.
    The Army has structured the FCS contract consistent with 
its desire to incentivize development efforts by making it 
financially rewarding for the LSI to perform. Contracts have 
limits in that they cannot guarantee success. They are not 
insurance policies.
    As with most cost reimbursable research and development 
contracts, the LSI is responsible for making its best effort to 
develop FCS.
    If, given that effort, FCS falls short, the LSI is not 
necessarily responsible and is still entitled to have its costs 
reimbursed and may still earn full fee.
    The FCS contract provides a relatively high level of 
compensation for the LSI, over 80 percent of which can be 
earned before key demonstrations of actual FCS systems take 
place.
    Also, in evaluating the LSI's progress, the Army has to 
consider the extent to which its own performance affects the 
performance of the LSI. In other words, the Army bears much of 
the program's risks.
    The foregoing underscores the important role of OSD, the 
Office of the Secretary of Defense, in providing oversight of 
the FCS program. While the Army works to manage the program, 
OSD must work to oversee the program.
    To date, OSD has largely accepted the Army's approach to 
FCS, even though it runs counter to OSD's own policies and 
independent assessments.
    In our view, the unique business arrangements in the FCS 
program are not a substitute for following a knowledge-based 
acquisition approach.
    We believe OSD should hold the program accountable to high 
standards. The go/no-go decision in 2009 will be important in 
defining OSD's role in the program.
    To be sure, the stakes are high. FCS must be as good as or 
better than the current force, which is the best force in the 
world. Yet success of FCS is not assured and the government 
must protect its ability to change course if necessary.
    Finally, I believe that OSD should also look at FCS for 
insights into the defense-wide implications of both LSI and the 
system-to-systems approach to acquiring weapons.
    At the very last, a proposal to use an LSI should be 
considered a risk at the outset, not because it is conceptually 
flawed but because it indicates the government may be pursuing 
a solution for which it does not have the capacity to manage. 
Such solutions ought not to be accepted as inevitable or 
unavoidable.
    Mr. Chairman, that concludes my remarks, and I will be 
happy to answer any questions.
    [The prepared statement of Mr. Francis can be found in the 
Appendix on page 79.]
    Mr. Abercrombie. Thank you very much.
    General Curran, you will be cleanup.

 STATEMENT OF LT. GEN. JOHN M. CURRAN, USA, DEPUTY COMMANDING 
 GENERAL--FUTURES, AND DIRECTOR, ARMY CAPABILITIES INTEGRATION 
        CENTER, U.S. ARMY TRAINING AND DOCTRINE COMMAND

    General Curran. Thank you, Mr. Chairman.
    Chairman Abercrombie and Mr. Saxton and distinguished 
members of the subcommittee, I am really pleased to be here 
today on behalf of General Wallace, the commander of Training 
and Doctrine Command, to discuss the Training and Doctrine 
Command's (TRADOC) involvement in the development of Future 
Combat Systems, our C-130 transportability requirements for 
Future Combat Systems, and the active protection requirements 
for the Future Combat Systems manned ground vehicles.
    I welcome this opportunity, and I appreciate the 
outstanding support you have provided to the Army and to our 
soldiers engaged in this global war on terror.
    The United States Army's Training and Doctrine Command, as 
a representative of the Army's user community, developed and 
documented the required operational capabilities for FCS.
    TRADOC established requirements for the FCS family of 
systems to account for current and future capability gaps. 
Those gaps are in terms of responsiveness, deployability, 
agility, versatility, lethality, survivability, sustainability 
and training.
    From the very beginning of the Future Combat Systems 
program, TRADOC has teamed with the acquisition community, with 
DARPA, with industry and academia to define the capabilities 
our soldiers and leaders need today and well into the future.
    TRADOC will continue to play a key role in developing the 
core operational capability envisioned in FCS.
    We are currently working refinements and assessing their 
impacts from the user's perspective across the domains of 
doctrine, organization, training, materiel and leader 
education. All those requirements are being considered, not 
just through the lens of materiel alone.
    A key Future Combat Systems performance parameter requires 
the FCS systems be transportable worldwide by air, sea, highway 
and rail.
    This key performance parameter (KPP) states the requirement 
for the FCS to be strategically deployable and capable of 
conducting operational maneuver to execute a full range of 
missions.
    As we assess the latest FCS design work, we will balance 
the effect of platform size and weight with our requirements 
for survivability and lethality.
    This assessment includes lessons from current operations. 
More importantly, we will continue to measure what is 
technically achievable within the context of our operational 
concepts.
    At the same time, we are looking forward to seeing what 
future lift capabilities the Army will need.
    The Army continues to increase the survivability of FCS 
platforms as we go through the various design stages. It is 
important to remember that survivability is no longer simply a 
passive approach to survive a direct hit, but rather we must 
use a combination of passive and active protection suites, 
network-provided situational awareness and network lethality.
    To counter future threats, the Army has embarked on a 
holistic approach toward survivability, including leveraging 
the network for improved situational awareness, reducing 
signature management, improving ballistic protection, modifying 
operational tactics and pursing hit avoidance.
    In the context of military ground combat vehicles, hit 
avoidance comprises technologies to enable defeat of the threat 
prior to impact with the vehicle.
    The hit avoidance requirement for our future force is 360 
degrees hemispherical bubble of protection to our combat 
platforms.
    It is important to understand that on today and future 
battlefields, passive defense alone will not defeat all known 
or projected threats.
    An Active Protection System (APS) within FCS offers the 
potential to move beyond merely armor protection and also to 
eventually address threats from top attack.
    The Army will not procure and field FCS that is not 
effective and survivable under operational conditions. In 
short, survivability is not an area to trade off.
    Doing otherwise would violate the trust given to us and our 
fundamental commitment to providing our soldiers with the best 
combat equipment possible.
    Sir, as I close, fiscal year 2008 will be a pivotal year 
for Future Combat Systems. The resources provided to the Army 
to conduct operations while transforming and modernizing the 
force will determine the Army's ability to continue to 
accomplish its mission and to be postured to meet future 
commitments.
    Your continued leadership and support in providing full, 
timely and sustained funding is critical to our success. We are 
facing the challenging task of winning the war on global 
terrorism while simultaneously having to transform and 
modernize our forces.
    Sir, I look forward to your questions. Thank you.
    [The joint prepared statement of General Curran and 
Secretary Bolton can be found in the Appendix on page 58.]
    Mr. Abercrombie. Thank you very much, General Curran.
    We are going to go in reverse order of seniority at the 
sound of the gavel, and then we will go to those to ask 
questions by virtue of their arrival--obviously, a shameless 
attempt to get everybody to show up at the beginning, 
especially for the new members.
    So with that in mind, I will forego my questions.
    Mr. Saxton.
    Okay. Then we will go in order. Mr. Johnson will be first. 
Ms. Miller will be second. Then Mr. Reyes will be next, then 
followed by Dr. Gingrey.
    So, Mr. Johnson, if you will.
    Mr. Johnson. Thank you, Mr. Chairman.
    And thank you, gentlemen, for serving your country.
    I note that the request for Single Channel Ground to Air 
Radio System (SINCGARS) radios for the fiscal year 2008 base is 
$137 million, and then $1.3 billion for the 2008 supplemental. 
Are those the radios that are currently in use today or do they 
represent the next generation of equipment?
    Secretary Bolton. The SINCGARS radio is one that has been 
used for a number of years. They are being used in the field 
today. And they are upgraded on a regular basis, so the radios 
that we will be procuring next year, even though it is a 
SINCGARS radio, will have more capability than those we 
purchased last year.
    Mr. Johnson. And so in fiscal year 2007, the Army has been 
buying those radios for about $7,000 each, yet in the fiscal 
year 2008 budget the Army proposes to buy the same radios for 
about $10,000 each, a 30 percent increase.
    This increase will take place despite the fact that the 
Army intends to buy more than 100,000 of these radios in fiscal 
year 2008. Why is the Army paying more for each radio when it 
is buying them on such a massive scale?
    And shouldn't the Army be able to negotiate a discount or 
at least keep the price level?
    Secretary Bolton. As I mentioned earlier, Congressman, we 
have been buying the radios for a number of years. One of the 
major reasons for the increase is because of the increased 
capabilities we ask in that radio, to be able to transmit more 
data, more information and do it more effectively than previous 
radios.
    Mr. Johnson. So kind of like a larger hard drive, if you 
will, inside.
    Secretary Bolton. Yes, sir. So if you are going to buy a 
computer that has more capability in it because you need it--
buy, say, a 486 or something like that--that is essentially 
what we have done here, along with the increased quantities.
    And I will assure you that we do take the time to get the 
best price we can on that, and where possible we will go out 
and compete where we can. But the main driver here is increased 
capability.
    Mr. Johnson. How many suppliers are there for these radios?
    Secretary Bolton. One primary. I would have to go and check 
and see how many we have on that and get back to you on that. I 
will take that for the record.
    [The information referred to can be found in the Appendix 
beginning on page 115.]
    Mr. Johnson. Are these radios being acquired under an 
expedited urgent need process, or is it the normal procurement 
process?
    Secretary Bolton. No, the SINCGARS is already a product. 
There is no acquisition in terms of development or anything 
like that, so it is simply writing a contract and having the 
contractor provide us those radios. That is pretty fast.
    Mr. Johnson. Does the Army need more bargaining power from 
Congress to get a better price on these fiscal year 2008 
acquisitions?
    Secretary Bolton. I think we have all the tools that 
Congress has provided over the years not only for these radios 
but anything else.
    The main thing that concerns me at a time of war are the 
number of sources I have and how quickly that source can 
produce. If we have the opportunity--and we may talk later 
about the JNN, where we have put that in the field.
    There is one source, but right now this year we are going 
to try to compete that, so we will have several sources and 
drive the cost down on that.
    But the urgency is the thing that drives this most, and 
normally I will go to one contractor. But even then, we are 
trying to get the best price we can on it. But the tools that 
Congress has provided are sufficient for the work that we have 
to do.
    Mr. Johnson. Thank you.
    What is the reason why only $137 million is being requested 
in the fiscal year 2008 base budget and the $1.3 billion is 
being asked for in the 2008 supplemental?
    Secretary Bolton. I don't know if I have a good answer. I 
would only speculate, because I did not build that. I simply 
provided those who do build that part what it would cost. But 
why it was put into the supplemental versus the base, other 
than we need it right now, I don't have a good answer for you.
    Mr. Johnson. And of course, when will the fiscal year 2008 
supplemental be heard? That will be some time after the 2008 
budget is passed, isn't that correct?
    Mr. Abercrombie. We have the supplemental. I am not sure 
exactly how we are going to work that as yet.
    Mr. Johnson. All right, thank you.
    All right, and I guess that will be my last question. Thank 
you.
    Mr. Abercrombie. Thank you, sir.
    Secretary Bolton, I want to make sure I understand your 
answer to Mr. Johnson. Are you saying that the increase in the 
cost is due to increased capacity of the radios, $3,000 worth?
    Secretary Bolton. Yes, sir. The bulk of it, that is true.
    Mr. Abercrombie. And if this passed--I want to, again, make 
sure I understand the answer. They are saying that if we pass 
the request, the dollar request, and they have that as a 
certainty for ordering, that they are actually going to 
increase the price rather than give us some kind of a 
negotiated price?
    Is this a negotiated price, the $3,000?
    Secretary Bolton. Each one of these is a negotiated price. 
What I asked the contractors to do is to give me a lot more 
capability, and they were not willing to give that to me for 
free.
    Mr. Abercrombie. I didn't say for free.
    Secretary Bolton. No, sir.
    Mr. Abercrombie. Okay.
    Ms. Miller, you are next.
    Mrs. Miller. Thank you, Mr. Chairman. I certainly want to 
commend you on being a very wise and fair chairman to recognize 
your junior members for a little bit of time. Here I appreciate 
it very much. Sometimes we wait throughout the entire 
subcommittee to have a chance. So I certainly appreciate that, 
and it will be an incentive to get here on time as well.
    And to the witnesses, thank you, gentlemen, for your 
appearance here before the subcommittee today, and the 
information, particularly as it relates to the FCS, and your 
service to our Nation as well.
    I would like to address my questions, I think, to the Army 
National Guard and Reserve and how you are incorporating all of 
that in your weaponry as well as far as readiness, training, 
from every measurement, from every standard.
    As we see with the Total Force concept, in the 30th 
percentile of all of the troops in theater today are either 
Guard or Reserve.
    Making sure that we have parity--and whether that is 
equipment or resources, or what have you--for the Guard and 
Reserve--I am just interested in knowing how the Army has 
planned to incorporate the Guard and Reserve in the training of 
the FCS.
    And also, as a follow-up question, how that might relate--I 
understand that there is currently an initiative, perhaps, to 
increase Stryker brigades for Guard and Reserve units, 
understanding that Pennsylvania is the only Guard and Reserve 
unit, I believe, that has a, as a state--I guess that is part 
of my question--a Stryker unit.
    If there is a--a brigade. If there is an initiative to do 
so, how many Stryker units would you see as optimal nationally?
    And where do you think these units might be placed, if you 
think that perhaps a consortium of various states might be best 
to look forward to this, and whether or not you think--as I 
say, the Army is even receptive to such a concept, and how you 
are incorporating, again, in terms of readiness for training, 
the various systems because of the challenges that we are going 
to continue to face as a Nation and using a very high degree of 
the total force concept to the Guard and Reserve.
    General Curran. Mrs. Miller, if I could perhaps address 
that for you, first of all, on our modernization strategy with 
Future Combat Systems, Future Combat Systems spin-outs will go 
to all of our brigade combat teams, no matter what component.
    So our National Guard brigade combat teams, which as you 
know are going through modernization or modularization 
transformation as well, will also be in line to receive the 
spin-outs from Future Combat Systems.
    So as we view the total force, we are looking at building 
the modernized capabilities into all the brigade combat teams, 
no matter whether they are Guard or active component.
    As to your point about the decisions the department is 
wrestling with now, which is in growing the Army, what is that 
force structure to look like? We have some guidance from OSD 
about what that should be.
    But there is some flexibility in that in terms of types of 
brigade combat teams, the amount of functional brigade support 
that would be required to support an additional number of 
maneuver brigades.
    And that is in process right now. We are going through the 
force design work to determine what should be the right number 
and types of those brigade combat teams, to give us the 
capacity that we think we are going to need for the future 
operating environment.
    So I think it is a work in progress, is what I would tell 
you. No decisions that I am aware of have been made 
specifically about what exactly the types of brigades would be, 
whether, you know, the mix between infantry, heavy brigade 
combat teams and Stryker, nor the decisions about the mix 
within the active and Reserve component right now.
    Mrs. Miller. Is that an issue that is actively being talked 
about with the Army and the Guard? And how is it working out in 
Pennsylvania? And are you looking for other states to--are you 
talking to the Adjutants General (A.G.s) in the various states 
about that issue?
    General Curran. Yes, ma'am. As far as I understand, they 
are all participating in that effort. And again, it is a 
decision that first needs to be made about what is your proper 
mix.
    And that goes into what your rotation strategy might be 
based upon your future projections of numbers of Stryker 
brigades you would need to keep the rotation base right.
    And as you know, you have to mix--active component rotates 
on a different cycle than Guard and Reserve do, based upon 
their nature, and so you have to count that into the mix.
    Mrs. Miller. Thank you, Mr. Chairman.
    Mr. Abercrombie. Thanks very much, Ms. Miller.
    Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here.
    And, Mr. Chairman, thank you for having this hearing, 
because this is, I think, one of the most important we may have 
this year in terms of validation by our actual troops that have 
recent combat experience in Afghanistan and in Iraq.
    In fact, as I think was mentioned--and I apologize for 
having to have left for a few minutes, but I think it was 
mentioned that there was a recent test by soldiers in Fort 
Bliss--actually, Oro Grande Range at Fort Bliss, I believe in 
November. Is that correct?
    Secretary Bolton. Well, we just recently concluded the 
exercise the first part of February.
    Mr. Reyes. First part of February.
    Secretary Bolton. Yes, sir.
    Mr. Reyes. So according to the information that I have, Mr. 
Chairman, a platoon of 36 soldiers tested the FCS technology, 
some of which is here this morning----
    Mr. Abercrombie. Yes, sir.
    Mr. Reyes [continuing]. I am told. One comment that I 
wanted to enter into the record--and with your permission, Mr. 
Chairman, I would like to enter this article into the record as 
well.
    Mr. Abercrombie. Without objection.
    [The information referred to was not available at the time 
of printing.]
    Mr. Reyes. Thank you.
    It quotes Sergeant 1st Class Andreas Ruggerio, and it says 
the following, ``The new technology we have is going to save a 
lot of lives.'' That is the thing we are most impressed with.
    And having had a chance to see the and read the after 
action report--and also, by the way, there is a video that I 
would also like to enter into the record.
    Mr. Abercrombie. Without objection.
    Mr. Reyes. Thank you.
    I think the best validators for a program are the actual 
soldiers themselves. And while this is mostly or all 
technology-driven, everything that I have read has factored in 
that our soldiers are very technology-oriented, with everything 
from Pac-Man to Nintendo, and--I think it is Xbox 360--whatever 
that thing is. So they had no problem----
    Mr. Abercrombie. You are showing your age.
    Mr. Reyes. Right. At my peril, Mr. Chairman.
    Mr. Abercrombie. You might want to go down a different 
path.
    Mr. Reyes. But the point is that they feel very comfortable 
with--the bottom line was they felt--in fact, a number of them 
said, ``We need this equipment now. We need to take it back 
with us when we redeploy to Iraq or Afghanistan.''
    So I would like either you, Mr. Secretary, or General, if 
you can share some of the anecdotal information you got back 
from the soldiers, because again, that is the ultimate kind of 
validation for a program, is will our troops use it, do they 
think it makes a difference, and does it make sense, given the 
threat that we are facing, with Improvised Explosive Devices 
(IEDs), with clearing of buildings, urban warfare, all of those 
kinds of challenges that we are facing in today's combat zones 
in Iraq and Afghanistan.
    Secretary Bolton. Well, Congressman Reyes, I went out to 
take a look at that particular exercise. It was the first part 
of February.
    You are correct, there were 36 soldiers in that platoon. 
Sergeant Barnes was one of those soldiers, who is a veteran of 
Afghanistan, two tours.
    The equipment you see arrayed in front of you is some of 
the equipment that we actually used there. You are absolutely 
right. Getting the soldiers involved early is paramount in what 
we are doing.
    For us in the Army, this is a new undertaking, to form a 
full brigade and evaluation task force which will be stationed 
at Bliss.
    And their sole purpose is to take these spin-out 
technologies and develop everything else you need to go along 
with the technologies--the tactics, the techniques, the 
procedures, the doctrine, the organizational structure, the 
training--everything you need, just as we do today with the 
technologies we are inserting literally today as the troops 
rotate over. And that is what they are doing with this 
technology.
    I will give you one anecdote. As we were watching the 
exercise and, most importantly, afterwards, when you listen--I 
think it was on the video you were referencing--you hear the 
comments of the soldiers.
    You hear the commander out there. They could see what was 
going on. It was wonderful to see where you are, where the 
enemy might be or is going and have a plan to take care of 
that.
    At the end, we had an after action report led by the 
commander to get feedback from the soldiers there. And then I 
asked a question. And I looked at the soldiers and I said, 
``Are we on the right path? Can you really use this?''
    And before anybody answered, you should have seen the 
smiles on everybody's face, because a lot of the soldiers there 
are back from the war. And then one said, ``We can use this 
now. We can use this now. I wish I had had this six months ago 
when I was over there.''
    So it validates for me we are on the right path. And with 
the help of the soldiers there, they will make it real in all 
of the other aspects, not just the materiel, for which I am 
responsible, but everything else you need to give it to 
soldiers in a couple years and get it over there.
    General Curran. Thank you, sir. I might just add for you, 
Congressman Reyes, that this evaluation task force that we 
have----
    Mr. Abercrombie. We have 30 seconds, General. Thank you.
    General Curran [continuing]. Established there will provide 
us an awful lot of insights, because if you put capabilities in 
the hands of soldiers, they are going to teach you something.
    They found the equipment very useful. Just to give you one 
anecdote to close, normally when you are trying to clear a 
room, you stand outside the building to gain entry with a four-
man team. You are stacked, protecting yourselves 360 degrees.
    They were able to go in with a three-man team, and the 
fourth member of that team was that small unmanned ground 
vehicle that is right over there.
    Mr. Reyes. Thank you, Mr. Chairman.
    Mr. Abercrombie. Thank you, Mr. Reyes.
    Next is Representative Gingrey.
    Dr. Gingrey. Mr. Chairman, thank you.
    Secretary Finley, Secretary Bolton, General Curran, Mr. 
Francis, we appreciate you being here on this all-important 
topic.
    I am not a big movie buff but I go to an occasional movie, 
and do you remember The Raiders of the Lost Ark, Harrison Ford, 
I believe, and that scene where----
    Mr. Abercrombie. You are right there with Reyes.
    Dr. Gingrey. I am right there. I am going down the same 
track as my good friend from Texas, that is right, Mr. 
Chairman.
    But when Harrison Ford was in danger, and one of these 
really ominous looking bad guys jumped out in front of him 
about 50 yards away, and he had that sword that he was swinging 
all over the place, and of course Harrison Ford just pulled out 
his gun and shot him.
    And it makes me think about--and, Sergeant Barnes, I know 
you are not a witness, but you might want to comment on this 
point I am trying to make--that here, we have spent--I think 
with this budget request we will have spent $15 billion on this 
Future Combat System.
    And is it going to be appropriate for what we are faced 
with now in the Middle East, in Iraq and Afghanistan, and in 
the future? So I think that is the big question.
    And of course, we know that we have gone back and cut out 
some things, and one of those was the Land Warrior program.
    And it was found that when you try to put an additional 75 
pounds onto the back of one of our great soldiers when they are 
already carrying 75 pounds on average into combat, that it just 
wasn't practical.
    So I do have some concerns that we are preparing ourselves 
for the right war of the future in regard to the Future Combat 
System.
    And that is why, of course, I would love to hear Sergeant 
Barnes's opinion on that in this exercise that was completed 
in--I think you said February.
    The other thing that I want to ask you----
    Mr. Abercrombie. Excuse me, Dr. Gingrey.
    Would you like to have him speak? It is okay with me if it 
is all right with you--if it is okay with Sergeant Barnes. We 
can take the time.
    Dr. Gingrey. That would be fine. Thank you.
    Mr. Abercrombie. I won't count it against your time.
    Dr. Gingrey. That would be great, Mr. Chairman. And I will 
go ahead and ask my last question.
    Mr. Abercrombie. Okay.
    Dr. Gingrey. The other thing is that in the Mine-Resistant 
Ambush Protected Vehicle (MRAP) program, it is not part of the 
2008 budget request, but it is a need.
    The Army says it really needs $2.24 billion. The Marine 
Corps says it needs $2.8 billion. And it is on this unfunded 
priorities list, so that sets $5 billion for this Mine-
Resistant Ambush Protected vehicle.
    And you know, we need that now. I mean, most of our 
soldiers--most of those killed in action (KIAs) and the vast 
majority of the severely wounded with amputations, et cetera, 
traumatic brain injury, are from these IEDs and mines.
    And I just wonder why that is not actually part of the 2008 
budget. It seems like that would be high priority in the 
realization of what is happening in theater.
    And anyone, but particularly I would--Mr. Chairman, I thank 
you very much for allowing Sergeant Barnes to comment on this.
    Mr. Abercrombie. No, that is fine.
    May I say for members' reference, page seven of our summary 
is what Dr. Gingrey is referring to. It will give you some 
reference point.
    Why don't we go in reverse order here? Why don't we deal 
with the MRAP question, and then we will go to Sergeant Barnes?
    Secretary Bolton. With regards to the Mine-Resistant Ambush 
Protected Vehicle, or MRAP, led by my counterpart in the Marine 
Corps, or in the Navy, Dr. Etter, a request came from the 
field, operational urgent need. That is now a joint operational 
urgent need validated in the October time frame.
    The Marines went ahead and put on contract a contract to 
deliver vehicles, and I believe those are being delivered now.
    In the January time frame, we basically went with about 
eight or nine contractors, asked them to delivery light 
vehicles to our test facility. This is up at Aberdeen.
    Mr. Abercrombie. In the interest of time, Secretary Bolton, 
I appreciate the history, but that is not the answer to the 
question.
    Secretary Bolton. We are looking to procure just over 400 
vehicles this year and put them in the field. I will tell you 
that the Army already has upwards of 1,000 similar vehicles in 
the field today. Those were purchased with previous 
supplementals.
    By this time next year, we hope to be up closer to our 
complement. The Marines will have the rest of that. Follow-on 
requirements may take us up to 2,500 total.
    Dr. Gingrey. So likely, Mr. Chairman and Mr. Secretary, 
that request would be in the 2008 emergency supplemental?
    Secretary Bolton. Yes, sir. As I understand, that is where 
it will be.
    Mr. Abercrombie. But the question was why isn't it in the 
DOD authorization. Is it because you can't spend it?
    Secretary Bolton. Well, from my point of view--and you will 
have to forgive me--where the money goes is not in my realm of 
responsibilities. I simply tell those who do that, ``If you 
want me to meet this requirement, here is the amount of money I 
need.''
    Where they put it in the budget--I can't help you with 
that. And I don't know. But I would imagine, based on others, 
it was because we believe we needed the money right now, and we 
do, to put people on contract.
    As soon as they finish the test at Aberdeen, I am putting 
people on contract, and I need money to execute those contracts 
this year, right now.
    Mr. Abercrombie. Are you happy with that, Dr. Gingrey? 
Okay. Next we will have Sergeant Barnes--well, I am not happy 
with it, but it is Sergeant Barnes's----
    Secretary Bolton. Mr. Chairman, I understand.
    Mr. Reyes. Mr. Chairman, as Sergeant Barnes goes up to the 
mike, can we stipulate that there is just a few years' 
difference between Sergeant Barnes and myself, to establish the 
technology thing? [Laughter.]
    Mr. Abercrombie. Yes, but you also have to remember saying 
doesn't make it so. [Laughter.]
    Sergeant Barnes, thank you. Perhaps if you would let Dr. 
Gingrey speak to you again, he will be able to put you on 
point.
    Sergeant Barnes. Yes, sir.
    Dr. Gingrey. Sergeant Barnes, again, thank you so much for 
your service to our country and two tours of duty in theater 
and participation in this exercise.
    And you think back to my original question in regard to the 
movie scene--I am sure you did see that movie. And really, what 
the effectiveness of this--and whether or not you were hindered 
by all of this equipment from some unconventional force that is 
happening right now in theater.
    Sergeant Barnes. When I first showed up for the FCS 
experiments, I had my doubts as far as the equipment, because I 
am, I like to think, an old-school guy. Just, you know, give me 
my weapon and let me do my job.
    But the big things that I pulled away from this was 
information. The amount of information that the FCS is giving 
us is unreal. We are getting information down to the lowest 
level. The lowest private in the squad is knowing exactly what 
is going on.
    As a leader, that makes me make more informed decisions, 
and faster. I can pull information from anywhere on the 
battlefield with this system.
    Another thing it is doing--it is eliminating uncertainty. 
The biggest problem we have on the battlefield, especially in 
an urban environment--and anywhere, for that matter, but most 
importantly an urban environment--is what is around the corner, 
you know, what is in this building I am going into, what is 
happening three buildings down the street that I can't see.
    Well, in the experiment, what I used--the SUGV, the small 
unmanned ground vehicle--that was eliminating the uncertainty 
of the inside of the building, because before I have gone in 
the building, I can get a visual of what it looks like. That 
helps my squad already have a heads up of what is going on 
inside the building.
    It also let me know at one point, because it was shot at, 
that there were enemy inside that vehicle. Well, that changes 
my whole idea of how I am going to take down that building.
    Dr. Gingrey. And I am assuming, Sergeant Barnes, that this 
would cut down on blue on blue kinds of casualties.
    Sergeant Barnes. Yes, sir. And what a lot of people don't 
realize--the UAV, the unmanned aerial vehicle--that is real-
time reconnaissance.
    So if my squad is in a building and all of a sudden we are 
about to get ambushed, and there is bad guys moving on us three 
windows away, well, my platoon sergeant sees that because our 
UAV operator is letting us know, ``Hey, you have got enemy 
moving to your position.''
    That is more information that is going to keep me and my 
soldiers alive, because we can react to that before they--they 
don't even know that we see them.
    Same thing with the unattended urban ground sensors--we 
left those in buildings behind us, so we are not worried about 
our flank as much, because we have got the technology behind 
us.
    We are not leaving a man behind in my squad. I have got 
more guns in the fight, the direct fight right now, as opposed 
to having to leave some people behind to watch our rear.
    Mr. Abercrombie. Sergeant, I am going to have to end it at 
that. We are a little bit over. And we certainly appreciate it.
    Is that okay?
    Dr. Gingrey. Mr. Chairman, let me just also say thank you 
to Sergeant Barnes. He looked like a veteran witness here 
today, and I appreciate you letting him testify. Thank you.
    Mr. Abercrombie. Yes, Sergeant, thank you for a straight 
answer.
    Mr. Ortiz, followed by Mr. Akin and then Ms. Castor.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Thank you so much for being with us today, and we 
appreciate all the fine work that you do.
    You know, I have my concerns because I have been here now 
25 years, and we go back and we see where we spent billions of 
dollars trying to get a helicopter to fly which never flew, and 
that was the Comanche. Do you remember that?
    Now, we have spent $8 billion now on the Future Combat 
Systems, and going through Mr. Francis's statement, to date the 
FCS program has spent about $8 billion, despite having 
significantly less knowledge and less assurances of success 
than required by best practices of DOD policy.
    You know, we are fighting this war for almost five years. 
But then it is going to take more time to put the systems to 
work. My question is now when will we know and what base mark 
do we have to say, ``It is not going to work. It can't 
happen,'' after we pour billions of dollars into a program?
    Now, when we go to war--and I understand that there are 
some assumptions made that some of this is equipment we assume 
is going to work. What if it doesn't work?
    And this is my doubt that I have, maybe because I have been 
here too long, and I have seen a bunch of money just gone down 
the drain because equipment doesn't work.
    So what assurances can you give us? And how much time does 
it take to get adequate information to put a program together 
to come up with equipment that will work?
    This is the doubt that I have, and maybe you can assure 
me--do you know why we spent billions of dollars on the 
Comanche helicopter and other equipment that we put money--you 
know, and anybody--Mr. Francis, I was reading your testimony, 
and it was good testimony.
    All of you had very good testimony. But even then, when I 
read all this testimony, I still have my doubts, because I have 
been burned before. So any of you who would like to jump in--
and I am ready to listen to your----
    Secretary Bolton. Well, Congressman Ortiz, it is good 
seeing you again. And I share your concerns, and I share the 
concerns that were expressed by the GAO.
    We have structured this program to address risks. We have 
risk mitigation plans. Some of that you see mitigated right 
here.
    Unlike the program that Dr. Francis alluded to earlier, 
when we first set this program up, it was, no pun intended, a 
big bang approach--we will deliver all this technology at a 
certain time, we will have a unit of action, we are ready to 
go.
    In 2004 we said that is not good enough. We need the 
technology as it matures in the hands of soldiers today. Let 
them determine whether or not it is good to go in a real world 
scenario.
    That is what this evaluation task force is all about, to 
take a look at the concerns that you and other members have 
raised, and many, many more, to see will this actually work.
    We run them through the same scenarios we run deploying 
troops through today. If you go up to Fort Lewis, for example, 
and watch the Stryker brigade, they have been going through a 
series of exercises.
    We are running this equipment through similar exercises to 
guarantee to ourselves that it will work in combat. Now, I 
would like to sit here and say that all 14 technologies are 
going to prove out and we will be using that in the field. We 
may not.
    But I don't want to get to the point that you are raising, 
and that is we get it to the field and it fails there. That is 
absolutely the wrong place for it to fail. That is why we are 
doing it at Bliss, to prove that out right now.
    I think by structuring the program this way, where you bit 
it off in chunks and take a look, and give it to real soldiers, 
go through real scenarios--is the best way of assuring, first, 
the soldiers that we have technology that will work, and the 
taxpayers that we are spending the money wisely.
    Mr. Ortiz. You know, and this is good that we try to have a 
check and balance system. Thank you for having GAO with us.
    Would you like to elaborate on your statement and the 
response?
    Mr. Francis. Certainly, Mr. Ortiz. As we had in our 
report--I mean, I believe it is in the Nation's best interest 
for FCS to work and for the program to go as planned. So I 
think we all want that to be successful.
    But like you, I have some scar tissue built up over the 
years. I worked with the Comanche program back in 1982 and 1983 
when we had similar optimism, if you will.
    I think there is a couple of things about FCS that we have 
to be aware of. One is if you go back to Comanche, when that 
started, we did have a lot more prototyping. We had a lot more 
advanced development done before we said, ``Hey, we think this 
is a program.''
    In Future Combat Systems, we have gone past that point and 
we are going to be developing the solution as we go, so less 
knowledge up front.
    And we also have to be aware that this is a system of 
systems, so each individual component has to work. Then they 
have to work together to provide that leap ahead or synergistic 
capability.
    On that note, it is not until after the production decision 
in 2013 are we actually going to get physical demonstrations of 
the system of systems.
    So the scale is important here, because by that time we 
will have made about $30 billion investment, which would have 
bought Comanche over a few times.
    So there is a fair amount of risk. These are good 
demonstrations. And they are indications that some things are 
working. But we really won't know until we are very well into 
the program that it is going to provide that aggregate system-
of-systems capability.
    Mr. Ortiz. You know, for example, FCS--on the weapons that 
we were looking at--would they be adaptable to future mission 
requirements? Can we adapt when we are working on this 
equipment?
    Secretary Bolton. Oh, yes, sir. In fact, that is what this 
is all about. You are not going to have an FCS brigade out 
there in two years or three years. You are going to have the 
force we have today.
    The radios sitting on your left, the Joint Tactical Radio 
Systems--those go into Humvees. They go into Abrams tanks. They 
go into Bradley fighting vehicles. Part of the network will be 
there to allow today's force to have some of that technology to 
do their missions better.
    On the next go, we will have the Active Protection System 
that will be going out to some of the vehicles. So this 
technology is not being just demonstrated for the FCS program. 
It is being demonstrated to give to the current force on a two-
year cycle.
    We are not waiting for the big bang out there. Our troops 
deserve the very best technology we have today. We have been 
doing that for the last few years on other technologies that 
are basically off the shelf.
    Now it is time to take this technology and put it into the 
field. But before it goes there, you have got to prove it. So 
this is going to the current force.
    Mr. Ortiz. I still see my green light still there, for just 
a moment.
    But you know, I am not a scientist and I am not an 
engineer. We depend on your expertise. But we have been at 
war--in fact, we just observed the fourth anniversary of the 
war with Iraq.
    Why does it take so much time to put something into the 
program so that we can put something together? I think that the 
range has a lot to do--the range, you know, in different 
scenarios of--we did not expect to fighting this kind of war 
that we are fighting today.
    And I understand it is going to take at least two more 
years before we are finished testing some of this equipment. Am 
I correct?
    Secretary Bolton. It will take two years for Sergeant 
Barnes and the rest of the evaluation brigade to go through all 
of the testing it has to go through.
    As I mentioned earlier, there are things in training we 
need to look at, the organizational structure, the tactics and 
techniques, procedures--all those things need to be looked at 
with this new equipment being put into the current force.
    The other thing I will leave you with is we have trip 
wires, too. And I have put them on the various milestones, sub-
milestones, in this program. Comanche had a trip wire, and I 
terminated that effort.
    I have terminated 75 other programs and contracts since I 
have been in this position. And so far, this program has not 
tripped over any of those wires. If they did, we would have a 
show-cause on it.
    Mr. Ortiz. Thank you so much, and we appreciate the fine 
work that you gentlemen are doing. Thank you. Thank you so 
much.
    Mr. Abercrombie. Thank you. Thanks very much.
    Next, Mr. Akin, and then Ms. Castor.
    Mr. Akin. Thank you very much, Mr. Chairman.
    I had a couple different questions. I guess the first was 
the FCS program has sustained three significant and consecutive 
budget cuts in 2005, in 2006 and 2007.
    How much more a reduction can we take in 2008?
    Secretary Bolton. In my opening remarks, I indicated that 
we have taken roughly $820-some-odd million in 3 consecutive 
cuts. We adjusted even more as we looked at the affordability 
issues in the Army and putting the 2008 together.
    That is why we have adjusted the program from the 18 to the 
14 that we have now in terms of technologies.
    I think it is important for us to keep the funding where it 
is, as we have requested, so we can go ahead and get this 
technology on course to the troops, so that they can go ahead 
and do the work that they need over the next couple years.
    Without keeping the funding where it is, I am troubled that 
we will be able to put this technology on.
    Mr. Akin. The cost is going to be that the time lines all 
shift, right?
    Secretary Bolton. Oh, yes, sir. We have already shifted--as 
a result of the cumulative effect of all those cuts, I have had 
to move milestones by five months to six months.
    It doesn't sound like much, but to me, any slip is 
important, because that puts you on a trend that is not 
healthy.
    Mr. Akin. Now, from, Mr. Francis, your comments, it sounded 
to me a little bit like--from what I was hearing you saying, it 
sounded like you were a little bit of a worrywart.
    And I think you are paid to be that. You are supposed to be 
just making sure we are doing things right.
    Is part of what you are saying the nature of this program 
is more spiral in terms of its development than what we have 
done in the past, and inherently there is more risk in 
something that is spiral? Would that be a good summary of part 
of what you are saying you have got to watch for?
    Mr. Francis. Mr. Akin, I would say not so much the spirals, 
but the basic enabling or first-of-breed technologies that make 
the future spirals possible--I think those things are not yet 
known. And so that would be the concern I would raise.
    Mr. Akin. Wouldn't the people in the program acknowledge 
that? Isn't that the whole design of the program, that we have 
put stuff in that we don't know in order to try to compact the 
technology--before the technology is first invented and the 
time it gets to the field--we are trying to shorten that cycle, 
right?
    So I mean, wouldn't the people that are running the program 
say, ``Yeah, you are absolutely right, we know that there are 
things in there and we have spirals out. In case this doesn't 
come up, we are going to do it a different way?'' Wouldn't they 
say that?
    Mr. Francis. I think they would. I think the Army has been 
up front about its risks and has been candid about them. I 
guess we would differ in our views that--I think the Army's 
view is they are not going to have the problems that other 
programs had.
    When we have seen this strategy in the past, it has not 
worked out, because technologies have a way of misbehaving and 
not acting predictably.
    Mr. Akin. Right. Now, the other thing, though--it seems to 
me that--and anyone jump in on this. It seems to me that what 
you have got here--it is not like one product.
    It is not a helicopter or a long-range cannon, or whatever 
it is. It is a whole system and a whole cluster of 
technologies. So I would assume there are going to be some of 
them where those technologies will not mature. We will have all 
kind of bugs and problems with them.
    But because you are investing in so many different things, 
it still means a lot of them could succeed as well. Isn't that 
true? So it is not really like one program. It is a whole 
family of interconnected products.
    Mr. Francis. That is true, Mr. Akin. But all the 
technologies aren't equal, and there are cumulative effects.
    I would just say one of the really important things about 
FCS is having that quality of service network, which has a lot 
of volume, a lot of reliability and very fast.
    You have a lot of different technologies that contribute to 
making that happen, so it is very important to know when do you 
fall below critical mass, because that will affect the rest of 
the systems.
    Mr. Akin. The communications network itself is the most 
central piece, you are saying, that we--that really has to work 
to make everything empowered.
    Mr. Francis. Right. It is the information that makes the 
other changes possible.
    Mr. Akin. Secretary?
    Secretary Bolton. And I tend to agree with that. The 
network is extremely important. And it is a collection of 
systems that all have to work together. But it is not only 
materiel.
    Remember, there are other things. That is why we have the 
brigade here. You have got to look at doctrine. You have got to 
look at organization. You have got to look at how you are going 
to train these things.
    And if you look at this like a software program, because 
there are a lot of computers out there--some of us have been 
involved with the early testing of that as an end user.
    I do a beta test which then informs the developer, and he 
actually changes and modifies the basic requirement based upon 
what I have. And that is what is going on here all over the 
board.
    Mr. Akin. Thank you. My time has run out.
    Thank you, Mr. Chairman.
    Dr. Finley. If I could, the way we see it is we are in a 
third generation of fighting--irregular warfare as described in 
the Quadrennial Defense Review (QDR) is like a third generation 
of warfare for us, in my day and age, if you will.
    Platform-centric warfare started out tank on tank, ship on 
ship, aircraft on aircraft, very traditional warfare. Desert 
Storm--very much information-centric warfare. We had a decisive 
advantage because we could interoperate between our platforms 
and coordinate between the Army, the Air Force and the Navy.
    Irregular warfare, which is the global war on terror, in a 
very long-term war is very, very different. The very kinds of 
systems, as Secretary Bolton has pointed out--that are 
demonstrated here provide you the insight that protects the 
soldier and gives him that comfort level that he is protected 
going into unknown territory.
    You know, in urban warfare, in unrestricted ground rules, 
it is a different dimension than where we have traditionally 
been.
    So what is so different about FCS, in my judgment, is that 
it is the network that makes the difference and the sensors and 
the technologies that go with it.
    Mr. Abercrombie. Thank you.
    Next, Ms. Castor, followed by Mr. Saxton.
    Ms. Castor. Thank you, Mr. Chairman.
    Thank you, gentlemen, very much for your testimony and, 
Sergeant Barnes, for your service as well.
    I would like to go back to the MRAP to get further 
clarification. These are the mine-resistant ambush protected 
vehicles, the ones that are supposed to replace the up-armored 
Humvees to better protect our brave men and women from the IED 
and mine blasts and their injuries and untold deaths there.
    I understand based on the committee's summary here nine 
vendors have submitted proposals. They are undergoing tests. 
The vendors have various vehicles that are being tested. 
Ultimately, the Army has requested 2,500.
    And, Dr. Finley, service-wide now, especially with special 
operations in the Air Force--their new request--it could be up 
to 8,000 vehicles.
    That is why it is a little--it is confusing when it has 
been expressed to us that this is a top priority for the 
service--and it is certainly a top priority for us to ensure 
that our troops have the best protection in the theater--that 
the Army has included $2.24 billion on its unfunded 
requirements list for fiscal year 2008 and the Marine Corps, 
similarly, has stated $2.8 billion on its unfunded fiscal year 
2008 list.
    Could you clarify this? If it is a top priority, why is it 
on an unfunded list?
    And then I would like--Mr. Francis, I know that your 
analysis was for the FCS, but are you able to comment on the 
acquisition and development strategy for the MRAP? And if not, 
is there another GAO analysis as well? Thank you.
    Secretary Bolton. With regard to why it is on an unfunded 
list, why someplace else--I will have to take that for the 
record, because as I mentioned to the chairman earlier, that is 
outside of my role.
    However, with regards to the timing and the requirement, 
the requirement came in to us in the October-November time 
frame. There were other priorities that had already consumed 
what monies we had, so we actually took money from other places 
to get the contract going.
    There were nine offers. I think we are down to eight on 
those. You are correct, they are delivering vehicles over to 
Aberdeen for testing.
    The confirmed requirement right now is for 1,185. The Army 
will have roughly 400 of those. The rest will go to the Marine 
Corps. And then as we validate our requirement, it could go as 
high as 2,500 right now for the Army.
    And that is where we are on that, and why it is on an 
unfunded list, why it is not taken from someplace else, that is 
really in someone else's lane, and I will get you an answer for 
that.
    [The information referred to can be found in the Appendix 
beginning on page 117.]
    Ms. Castor. Dr. Finley, do you have an explanation?
    Dr. Finley. No, ma'am, I do not. I can take that question 
for the record as well. The program is currently an ACAT 2 
program, MDAP ACAT 2. It is transitioning to an ACAT 1 program, 
which will come under OSD's oversight.
    We are working with Secretary Etter and Secretary Bolton 
for a very seamless transition as we move from an ACAT 2 to an 
ACAT 1 program.
    And in that respect, we are working the acquisition 
strategy so that we have a very seamless transition period, 
because we support that this is a very important vehicle for 
the battlefield and for the protection of our soldiers.
    [The information referred to can be found in the Appendix 
beginning on page 117.]
    Mr. Francis. Ms. Castor, we are just starting to look at 
MRAP right now. One of the things is it is--these are existing 
vehicles that have been developed and used by other countries, 
which is why they can be bought, I think, so much more quickly. 
And there are three classes of them.
    So we are just starting to look at them now. One of the 
things we have to look at is because it is being bought so 
quickly, you get a little bit concerned about we are having to 
buy a contract of logistic support, and we are also buying the 
configuration of the vehicles as the contractors have designed 
them.
    So the government is going to be, I think, in a position of 
having to watch how it can support these vehicles in the 
future. So that is one thing.
    Another thing--and this is a question, not a criticism--if 
the vehicles have been around, I don't know what it is about 
the requirements system--and maybe General Curran has some 
insight there--as why couldn't we have recognized that sooner 
and gotten them into the system sooner rather than kind of an 
emergency buy at this point.
    Ms. Castor. You will have an answer for that question. That 
is a good question.
    General Curran. Well, I can just comment that the required 
capabilities for a future light tactical vehicle are stated. 
There is a program that is proceeding on that, that we are 
doing collectively with the Marine Corps.
    It is plan to delivery is further out in the out years, and 
the gap we are facing is very critical today. So that is why we 
are looking at what off-the-shelf capability could you fill in 
an interim, in this particular environment, that is kind of 
skewed toward the protection end, rather than a vehicle that is 
balanced between mobility, protection, and maintainability, 
sustainability, which is what you look for in a vehicle, a full 
production vehicle.
    So we are looking for a gap filler--I think is what we are 
after.
    Dr. Finley. I cannot answer that question, Ms. Congressman, 
directly. I would like to offer a couple more comments.
    These contracts that have been set up are Indefinite 
Delivery/Indefinite Quantity (IDIQ) contracts. They are written 
in such a way they can be terminated, you know, if they do not 
perform. They have gone to so many contracts right away to try 
and get the rate production for what the needs are in the 
field, to be ramped up as fast as possible. And that is why 
they have gone to so many.
    Our biggest concern, our biggest oversight input right now, 
is to address the challenge of logistic support. When you have 
so many different configurations of vehicles on the 
battlefield--and what we have seen is very rapid deployment 
programs is they sometimes do not have the sustainment legs, 
and when they break down there is just no maintenance parts 
available for them.
    We believe all these issues are being proactively addressed 
by the Navy, by the Marine Corps and by the Army, and we just 
put that out there as a data point for us to be very cognizant 
of so that we spend the taxpayers' money very efficiently.
    Mr. Abercrombie. Thank you.
    We will go to Mr. Saxton, and then I will go to Mr. Davis, 
and then I will finish up unless another member comes.
    Mr. Saxton. Mr. Chairman, thank you.
    I would just like to return to a couple of very excellent 
points that I thought you made in your opening statement 
involving our collective ability to be prepared for future 
warfare.
    Mr. Chairman, you mentioned the psychological need for our 
country to be prepared and the industrial need for our country 
to be prepared.
    And what we are, I think, really here this morning 
discussing is how we identify what it is that we need to be 
prepared for. And therefore, the follow on, what will the 
Future Combat System look like in order to meet that threat?
    Mr. Finley, you were talking just a few minutes ago about a 
relatively new kind of warfare known, as you described it, as 
irregular warfare.
    Could you just describe that for just a moment?
    Dr. Finley. Well, irregular warfare is not a new form of 
warfare, and it goes by many different names--unrestricted 
warfare, irregular warfare. Go back to Alexander the Great. You 
know, if you look at world history, go back to World War I.
    The basis of irregular warfare is there is no rules. The 
basis of irregular warfare--you cannot identify the bad guy.
    And several of you have pointed out here today, what is it 
going to be like when we cannot identify the bad guys, they 
look like us, they act like us, and all of a sudden, you know, 
they are a threat to us?
    So that is the genesis and the basis of irregular warfare, 
and that is why what the FCS program is doing is so vitally 
important for the Department of Defense.
    Mr. Saxton. Okay, thank you.
    General Curran, yesterday when the chairman and I were with 
you, General Cody described for the chairman and I the process 
through which you are currently evaluating warfare, irregular 
warfare, and looking to the future at the same time to try to 
determine what warfare will look like based on what we see and 
observe today, what we think may exist tomorrow.
    And you are in the process, through a kind of a formula, 
are you not, of making determinations about what it might look 
like, as best we can tell without a crystal ball, 10 years from 
now?
    General Curran. Sir, we are. And we work this very closely 
with the joint force, with the other services, with Joint 
Forces Command, and with the Defense Intelligence Agency. 
Annually we review it.
    It is called the Joint Operating Environment. It describes 
what we envision, our best estimate of what the future 
operating environment will be for the joint force.
    And from that, then, we then have to determine, based upon 
that, what our concept for operating in that environment would 
be, and from that, then derive what our required capabilities 
across not only materiel but, of course, doctrinal changes, 
organizational changes, training, leader development would need 
to be to operate in that future operating environment.
    And FCS is fits exactly what----
    Mr. Saxton. Okay. But before we get to the system, tell us 
what you are seeing based on that process.
    General Curran. Sir, what we are seeing is--in short, what 
we see today but worse. We expect to continue to deal with 
asymmetric threats, with individuals who--potential adversaries 
who do not operate on the same moral plane that we do, who have 
clearly different interests and truly don't agree with many of 
the ideals that we have.
    We are looking at environmental factors that include now 
being based primarily in the continental United States, 
extended distances to have to deploy the force to, extended 
borders and, in some cases, ungoverned regions that we may have 
to operate in, across the full spectrum of environments, desert 
to jungle to other complex terrains, more urbanization--which, 
of course, is complex in itself.
    Mr. Saxton. Non-state actors.
    General Curran. We will have both cases of non-state 
actors, state-sponsored terrorism, as well as the traditional 
nation state potential adversaries out there who will seek out 
on the open markets niche capabilities to at least be on par, 
or better in some cases, in particular niche capabilities to 
our own capabilities.
    So it is really very much what we see today, but even more 
exacerbated. The final point I will make is----
    Mr. Saxton. With some different technologies involved.
    General Curran. And that was the final point. There are 
some disruptive technologies out there that we anticipate would 
come about.
    And one of the reasons that you try to anticipate what 
those disruptive technologies could be is so that you can stay 
ahead of them.
    Mr. Saxton. And so moving to the Future Combat System, 
which is, as I understand it at least, a number of concepts--
the first concept, it is a long-term program which won't be 
fully deployed, at best, until when?
    General Curran. Sir, the first spin-outs will occur in 
2010. But the first full brigade combat team will begin to be 
built in 2014, and it will be delivered in 2017----
    Mr. Saxton. 2014. That is seven years from now.
    General Curran. Yes, sir.
    Mr. Saxton. And become operational when?
    General Curran. 2017, sir.
    Mr. Saxton. 2017, so that is 10 years from now.
    General Curran. Yes, sir.
    Mr. Saxton. And so the second concept is the evolution to 
get there, and that evolution to get us there gets us 
technologies for our soldiers to use short-term.
    General Curran. It is, sir, and that is really the purpose 
of the spin-outs. As the capabilities mature, we spin them out 
so that we can start to proliferate Future Combat System 
capabilities into more of the brigades at an earlier time.
    Mr. Saxton. Thank you.
    Mr. Chairman, let me just conclude with this. This FCS is 
really a planning process that moves to a Future Combat System 
through an evolutionary process that gives us capabilities 
along the way to fight this irregular war that we are involved 
in.
    And I appreciate very much the great effort that has gone 
into looking ahead to see what it is that we are going to face 
next year and the year after that and 2017 as well, and I look 
forward to working with you along the way to make sure that 
this evolutionary system comes about.
    And I also want to say to GAO, we are glad you are there. 
You are the traffic cop. We are glad you are there, because we 
don't want to waste money. And we are glad that you are part of 
this process as well.
    Thank you, Mr. Chairman.
    Mr. Francis. Traffic cop sounds a little better than 
worrywart. [Laughter.]
    Mr. Abercrombie. Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman.
    You know, the one thing I would preface the--I walked in 
when my colleague was commenting on the MRAP. I think systems 
like that are noble when they are developed.
    The challenge that is faced institutionally, though, is 
that treats a symptom, not a cause.
    I am very concerned in particular about the downstream 
impact on maintenance, training, doctrine, consuming resources 
that would go to something that may or may not actually be 
effective, you know, against devices like explosively formed 
penetrators and things like that.
    And though it sounds good politically for us to be talking 
about systems like that, I would like to step back for a 
moment--particularly the idea of, you know, the change that we 
have seen.
    When I enlisted in the Army 30 years ago, looking 
backwards, and particularly when I graduated from Ranger 
school, I would have to say I might as well have been in the 
Army during the second world war or in the 1950's for the 
changes that have taken place since, particularly with 
technology, the ability to process information.
    And I guess the environment that I grew up in saw the 
procurement of tools come down to first focusing on people; 
second, ideas; a real assessment of the array of threats that 
we could face; developing a doctrine for that; and then saying, 
``Okay, what is the equipment that is going to be necessary, 
you know, to accomplish our objectives to equip the troops?''
    And you know, to me the key for success in asymmetric 
warfare is the ability to have access to information, to 
disseminate it quickly. That is the one combat multiplier there 
and in business.
    And I get the sense that there is a concern--I personally 
believe we need to increase the defense budget and particularly 
separate from other operating budgets for programs like FCS.
    But some of the spin-out technologies that are there I 
believe are very valuable to us right now. The military general 
approach to procurement is very different than the commercial 
world.
    Toyota completely redesigns every vehicle bumper to bumper 
every three years and can continue to adapt in the marketplace.
    My concern, having worked in manufacturing, having served 
in the Army and seen a huge amount of transition in that time 
as well, is that we may be missing some opportunities here, you 
know, focusing on the short term, when to my understanding 
nothing I have seen on FCS is even new, it is just new 
integrations, a way of putting a lot of existing technologies 
together.
    There will be new tools that are coming that will be 
designed, but by and large, much of what we are dealing with 
are proven forms of technology either in the commercial world, 
you know, other areas.
    And I guess my question really is for Mr. Bolton here. The 
program is well into its fourth year right now.
    Secretary Bolton. Yes, sir.
    Mr. Davis. I know it underwent a recent program adjustment 
and the fiscal year 2008 and out year budgets were reduced 
significantly from what was projected last year.
    You know, do these actions--the adjustment and reduced 
funding levels--signal problems with the program from your 
level, or is the FCS being sacrificed to pay for near-term 
operational and reset needs?
    Secretary Bolton. I guess I go toward the latter. I 
wouldn't quite characterize it that way. We obviously had some 
fiscal challenges, and we adjusted the program to allow the 
Army to meet those fiscal realities.
    The program itself, management-wise, technology-wise, is 
performing the way we want it to perform. We made those changes 
in the program because of fiscal realities.
    Mr. Davis. How do you plan to get these priorities changed 
in order to keep the system on track? I have now become very 
concerned, dealing with an adaptive enemy, that--you know, I 
think one of the programs that promises great fruit to have a 
very adaptive tool for at least a generation is, let's say, 
being sold out short.
    Secretary Bolton. One way--and you have already touched 
upon this--are the spin-outs. Rather than waiting for all the 
technologies to come together 10 years from now, as the 
technologies mature, put them in the field right now and put 
that across the entire Army rather than waiting.
    And I think once it gets into the hands of the soldiers, 
and they show us what they can do with it, then there is a 
strong motivator for all of us to support that, not just me, 
but everyone else, and the resourcing part of this and so 
forth.
    So I think the move, which started in 2004, to set this 
approach up is the one that has put the program, I think, in 
pretty good stead.
    It also gives you the flexibility to make some of those 
changes that are going to happen, because reality is reality, 
whether it is fiscal or technology. If we had had just one big 
program trying to absorb and make some changes, then it would 
have been very, very difficult over the last six months.
    So having the spin-outs and having those prioritized as 
they are I think are very helpful. And the more we prove to 
ourselves, to the soldiers, the more I think those who control 
the resources will allow us to have the monies we need to go 
the whole nine yards here.
    Mr. Davis. The one thing I will leave you with, a thought, 
there will be new ideas that will be developed as the spin-outs 
go into the field, new applications, ways to make things more 
efficient.
    My feeling would be not to let budget constraints get in 
the way, as if there is more money to make an investment. I 
think a near-term investment in something like this would 
produce a vastly greater downstream impact than programs like 
MRAP and others.
    I yield back, Mr. Chairman.
    Mr. Abercrombie. Thank you, sir.
    Thank you. Thank you, Mr. Davis.
    Mr. Bolton and Dr. Finley, in the wake of all of these 
questions, I want to ask the following question. Even though 
you have already indicated in other answers about budget 
priorities, I would still like to have this for the record.
    The Army has an $11 billion list of items that went 
unfunded in the fiscal 2008 budget. That has been mentioned 
several times in different contexts today.
    And Army leaders have testified that the Army will continue 
to need $13 billion or more--I expect the answer actually is 
more; from the time I put this question together, it was $13 
billion, and I think it is probably closer to $15 billion or 
more now--per year for the foreseeable future to reset Army 
equipment worn out during the war in Iraq.
    This has to do with the question of replacement on an 
ongoing basis. And this past January, the President asked 
Congress to expand the Army by 65,000 soldiers over the next 5 
years. That will require billions of dollars in funding per 
year.
    Given these conditions, what assurances can you make that 
we will be able to afford the Future Combat System program on 
top of these Army priorities?
    The reason I ask the question in that manner--in some 
respects, verbally, it is easy to move in a horizontal 
framework, to go across the page and list in categories, 
perpendicular categories, and then go across the page, each 
program and how much it is, and you add it up at the bottom, 
and over on the right side or at the bottom over on the right 
you put the total cost.
    But that is not the way we put these budgets together here, 
and that is not the way the bill actually comes together for 
authorization preceding appropriation.
    So the question is what assurances can you make that we 
will be able to afford the Future Combat Systems, and not 
afford it in terms of desirability but rather on top of these 
other priorities, because they come in a hierarchy.
    And I ask you to answer that question in this context. If 
the war in Iraq continues at least through the end of this 
President's term and beyond, and whoever becomes the 
President--so we are talking about at least two years--if it 
does, how would that cost impact the affordability of the 
Future Combat System?
    In other words, I don't think--you understand why I am 
asking the question and how I am asking it. I don't want us to 
suddenly stop October 1st, 2008 and say, ``Well, we will deal 
with the next thing. We will deal with the rest of it later.''
    I think I have to, in order to be responsible to the 
members of this subcommittee and subsequently to the Congress, 
take into account what the budget proposals are now and what 
the replacement costs are estimated to be now, regardless of 
whether in supplementals or in regular DOD authorization or 
whether they are post-supplemental supplementals, et cetera, 
and then put that into a context of what we can reasonably 
expect to happen over the next few months, at least to the end 
of this President's term.
    Secretary Bolton. Let me try to answer--it is a difficult 
question, but let me try to answer it this way, Mr. Chairman. 
For at least the last two years or three years, the Army 
leadership has said that if the war ended today, we would need 
monies, supplemental monies, just to recap and refit the worn-
out equipment as it came back, because we brought it back to 
this country.
    From my foxhole, the way I look at it for what I am 
responsible for, what I have asked our folks to do is take a 
look at all of our programs, not just the Future Combat System, 
and asked the same question. If we walked in tomorrow and the 
budget was significantly reduced, what would we do?
    The first thing we need to do is to work with our 
requirements community, with the programming community, and 
prioritize. What capability does the United States Army need to 
do what it is supposed to be doing over the next five years?
    Programs then are related to that, and then I would adjust 
those programs accordingly. Within programs--the FCS is a good 
example--where is your flexibility? What can you get out to the 
field right now? That is what the spin-outs are all about.
    So if we ended two years from now, we would know that we 
had the first part of that technology going to the field.
    Other techniques--how do you do the business of acquiring 
better? And that gets to the people part of this, to make sure 
they have got the best tools available.
    I would tell you today that the Future Combat System is 
managed very, very well. It is very effective. And the results 
show that. However, is it efficient? That is a question we are 
trying to answer now with different tools to allow them to do 
the job perhaps even faster.
    The other two I mentioned earlier, and that is you look at 
programs----
    Mr. Abercrombie. Are you speaking of efficiency in terms of 
affordability in the context that I have outlined?
    Secretary Bolton. Yes, sir. If I can reduce the time on the 
program, I am reducing the amount of money I am spending on the 
program. And that should make it more affordable to the Army.
    The other is look at programs early and determine whether 
or not you can do the programs.
    And I appeared here last year when we talked about another 
program, and we terminated the contract within the first year 
when it became very, very obvious we could not do this program. 
There is no need to spend the money if you can't get the 
program done.
    So those are tools that we are trying to and are bringing 
together that allow us to keep the cost of procurement and 
acquisition down, along with, in the long run, how you reduce 
the life cycle costs of----
    Mr. Abercrombie. Can I summarize what you are saying?
    Secretary Bolton. Yes, sir.
    Mr. Abercrombie. You are saying we can afford it on top of 
these other priorities.
    Secretary Bolton. We can afford up to a limit----
    Mr. Abercrombie. Immediate readiness.
    Secretary Bolton. We can take it up to a limit, and I am 
just trying to find every tool I can for my part of it to keep 
it as low as possible.
    Mr. Abercrombie. Thank you.
    Dr. Finley, do you have an opinion or a judgment in that 
context that I have outlined?
    Dr. Finley. I believe that we are and have been in an era 
of strategic choices. And the threats, the way we are doing 
business are constantly in need of being evaluated.
    And we look at converging what those requirements are, what 
the resources are needed to meet those requirements, and what 
the technology maturity and readiness is to enable the fielding 
of those requirements.
    I completely agree with Secretary Bolton to find ways to 
accelerate the implementation of these products to the 
warfighter in a faster, more efficient way. That means less 
money, more effectiveness.
    And one way that we are addressing that in the Pentagon is 
to--what we call bounded solutions. Many times we find that the 
requirements that are being levied on our warfighters and our 
procurement people is we need everything, and we need it now.
    The reality is you can't have everything and you can't have 
it now. What you need, deal with now, and we can incrementally 
implement that in a strategic way to evaluate that.
    To a large extent, that to me is the vision of FCS. It is 
an incremental implementation of a evolutionary product that is 
evolving and being driven by technology.
    We completely subscribe to that, with the proper oversight, 
with the checks and balances, and the transparency and insight 
into that information.
    And that is the direction we are headed in the DOD with 
OSD.
    Mr. Abercrombie. Nice try. Thank you.
    I just want to say the problem with this is it gets 
discouraging, when you ask a question about radios, and we are 
increasing the spending for it, and then you tell me the cost 
is going to go up by $3,000. And that is just for the radios.
    And we are getting a lot more sophisticated with some of 
this other--and I am concerned that the costs that are being 
presented to is, in the context of the other priorities we have 
to face, is going to be difficult to work out, because we are 
getting numbers that--I mean, we are getting--not 
appropriations--allocations given to us, funding allocations, 
that we are supposed to stay within the boundaries of.
    I suggest to you, in the context of my response to you on 
your answers, the administration has got to start thinking 
about how it is going to get more money.
    I mean, it is great to stand up and give a speech and say, 
``No new taxes,'' or ``No new fees,'' or whatever. ``We can 
have everything all around--we are going to cut taxes, and at 
the same time we are going to spend more money.'' I am not 
quite sure how that works.
    But right now, I am having trouble reconciling the 
President's request, the numbers that he is requesting through 
the Pentagon, and what is actually being required as these 
numbers begin to evolve as we get to the decision making here.
    Speaking of spin-out, it is spinning past what the 
President's budget numbers are. The 2008 budget that has been 
presented to us for authorization no longer represents the 
number that we are being told we have to have to meet the 
minimal requirements that you are presenting to us.
    And so that is why I am asking the question. I am not 
trying to pit the Future Combat System against MRAPs or 
something like that. I am not trying to do that. I am trying to 
figure out how the hell we reconcile all of these budget 
requests that seem to keep adding up.
    Okay. That is my difficulty. You have got to help me with 
that. That means you may have to go back in, take a look at FCS 
itself and prioritize. Help us.
    I am going to go to Mr. Sestak, and I have a couple more 
questions. I am going to defer them and ask Representative 
Sestak to--and then we will try and finish. I wanted to get 
finished by noon if we could. We will be a couple minutes 
after.
    Mr. Sestak. Thank you, Mr. Chairman. I apologize I am late.
    Mr. Abercrombie. No need for that.
    Mr. Sestak. All right.
    I hope these questions haven't been asked, but I would like 
to know the following. We had had some intentions a few months 
ago of going from 14 down to 5 or 6 brigade combat teams in 
Iraq by December.
    My understanding is that the reset program for the Army of 
about $13 billion a year is based upon the planning factor of 
having gone down to 5 or 6 brigade combat teams by then.
    The President seems intent upon maintaining the amount of 
troops that we have there, including the additional ones we 
have sent. What is that additional cost in order to reset the 
Army then? It goes from $13 billion to what if the intentions 
of our commander in chief continue?
    General, is that your area?
    General Curran. Sir, I am afraid not.
    Secretary Bolton. Nor mine directly, but we will take it up 
for the record, sir.
    [The information referred to can be found in the Appendix 
beginning on page 116.]
    Mr. Sestak. The question I have then is is the money for 
everything of the six new infantry brigade combat teams in the 
budget. And if so, how much?
    Secretary Bolton. Once again, I don't know the answer to 
that.
    Mr. Sestak. How about for the equipment in the ground 
programs to man these six new brigade combat teams?
    Secretary Bolton. Well, I have not been given a 
requirement, so I don't know--I have not costed----
    Mr. Sestak. So the money is not yet in the budget, then, 
for the plus-up that we are about to undertake.
    Secretary Bolton. That is outside my area, unfortunately, 
and I would not hesitate to give you an answer. But I will take 
it for the record to make sure you get an answer on that, sir.
    Mr. Abercrombie. Well, Mr. Sestak----
    Mr. Sestak. I apologize, yes.
    Mr. Abercrombie. No, no, not a bit.
    For purposes of clarification, there is, on the equipment, 
$3.8 billion in the 2008 budget as presented, correct?
    Secretary Bolton. That is true.
    Mr. Abercrombie. What Representative Sestak is asking is if 
that number needs to be modified, and if so, what.
    Secretary Bolton. That I don't know. I can tell you $3.8 
billion and how much the FCS has and so forth, just on 
equipment.
    But in terms of what does the plus-up mean in terms of 
65,000 soldiers and how that--I don't have that, because in 
that number is not only equipment, it is the training, it is 
the recruiting, it is the keeping of all----
    Mr. Sestak. I was primarily--and again, I may be asking the 
wrong people--ground forces procurement--and I knew there were 
several billion dollars in there, but I have heard estimates to 
equip with ground programs these 6 brigades--and I have heard 2 
different estimates, $10 billion, $70 billion.
    And I don't know where this additional funding--what level 
is really is at. But you don't have that.
    Secretary Bolton. I think in order to give you a good 
answer, I would have to take that for the record.
    Mr. Sestak. The reason I am asking these questions--I 
thought it was a great discussion on what you said, sir, 
priorities. And as you take the next step, the Army has 17 
percent less new recruit contracts this year than last year in 
its recruitment effort.
    We have taken into the Army 11 percent less above average--
those who were graded above average in mental category, the 
above average, 11 percent less than we did before.
    And those who are coming in in category four have gone from 
.5 percent to 4.4 percent, which is the maximum you can let in. 
And I think we also have, as I remember--I don't know if I 
jotted it down before I came--an 11 percent drop in those 
coming in who have high school diplomas.
    And this is all within the last--since 2004. Where are you 
going to get--and this isn't really yours, but the reason I ask 
the next question--where are the commissioned and non-
commissioned officers going to come from to man it, if we are 
having this challenge to get the wealth of recruits we want?
    Mr. Abercrombie. Representative Sestak, I hate to interrupt 
you, but I don't think these witnesses can be responsive to 
that question. It is a good question, but I don't think they 
can be responsive to it.
    Mr. Sestak. All right. But I meant it more as a context of 
this prioritization that you are taking up, as additional stuff 
that I think, you know, this war has, unfortunately tragically, 
taken us away from the real transformation that the Army was 
undertaking with modularity and FCS and all.
    And I guess my only other question is--if you could answer 
it, is when you do your procurement for these infantry brigade 
combat teams, will you have to do procurement for other units 
that support them?
    Secretary Bolton. Yes.
    Mr. Sestak. That is not yet in the budget either, correct? 
We will have to construct--when you say six new brigade combat 
teams and have to procure their equipment, you will have other 
units that will have to be stood up to support them, and their 
equipment, and their personnel, correct?
    Secretary Bolton. Right.
    Mr. Sestak. And that will be even more people, correct?
    Mr. Abercrombie. I am going to take those nods as 
affirmative.
    And that will have to be the last answer. I am sorry.
    Mr. Sestak. Thank you very much.
    Mr. Abercrombie. But the answer to the questions was yes.
    Secretary Bolton. Yes, sir. Now, I think we need to take 
back for the record what is in which bin of the budget and how 
much has been covered yet.
    [The information referred to can be found in the Appendix 
beginning on page 116.]
    Mr. Abercrombie. If you can do that within the next week, I 
would be appreciative.
    General Curran. Yes, sir.
    Mr. Abercrombie. All of these questions. Thank you.
    Mr. Sestak. Thank you very much.
    Mr. Abercrombie. Representative Saxton had a question.
    Mr. Saxton. I would just like to conclude my part of today 
by, first of all, thanking you for being here and for all the 
good work that you have done on FCS and getting us ready to 
meet the future threat that I have talked about several times 
today, and just conclude with this thought.
    The chairman just a few minutes ago brought up a subject 
which I think is extremely important, and that is that while we 
need to continue with your program, we also have other demands 
upon the resources that we are partly in charge of managing.
    And of course, last year General Schoomaker came here and 
told us he needed almost $20 billion for reset, and the 
chairman of the full committee at the time, Mr. Hunter, took 
care to give him every dime.
    And as we move forward with other warfighting costs that 
are a requirement for us to make sure that our soldiers, others 
who are deployed military, have the resources that they need, 
it has an effect on what we are going to be able to do going 
forward to prepare for the future.
    And so I guess the conclusion that I kind of draw from that 
is that we need to decide what your priorities are. Make sure 
the focus is razor-sharp so that we can find a way to support 
those things upon which you focus in this really important 
program for the future.
    Thank you very much.
    Secretary Bolton. Thank you.
    Dr. Finley. Thank you.
    Mr. Abercrombie. I think that is more an observation than a 
question. Fair enough? Okay, good. So you need not comment on 
that, unless you really, really want to. Okay. Thank you.
    Then I have two more questions, some of which you--or 
answers to which you don't necessarily have to elaborate on 
right now, but I would appreciate it if you could send 
something in writing if you think it warrants further 
elaboration.
    You maybe heard in other contexts my concern about proper 
testing and evaluation, which I think the Pentagon has a very 
good department for. This had to do with the Presidential 
helicopter.
    I am concerned about the Army deploying 27 Stryker mobile 
gun system variants to Iraq, because my information is that the 
standard operation in live fire testing has not necessarily 
been completed. I don't know if that is the case or not.
    What I want to know is what steps have been taken to ensure 
that U.S. troops using this version of the Stryker understand 
the limitations of these vehicles.
    Secretary Bolton. Well, first of all----
    Mr. Abercrombie. Am I correct that they have been----
    Secretary Bolton [continuing]. The full-up OT&E test has 
not taken place. We have had the Army Test and Evaluation 
Command on board to provide testing for us, but the Department 
of Test and Evaluation (DOT&E) requirement has not been met.
    Mr. Abercrombie. Why have they been sent, then? Have they 
been sent?
    Secretary Bolton. What we did was to provide the deploying 
brigade commander the use of these vehicles to see whether or 
not they were better than what he would have when he got to 
Iraq and whether or not they were safe to do the mission.
    Mr. Abercrombie. How is he going to know that if they 
haven't been tested? He is going to do the testing?
    Secretary Bolton. We did our testing. The Army did its 
testing to make sure they were safe for this particular 
deployment. And our evaluation of that was yes, they are safe 
for this deployment.
    I have limited the capability of that to block zero, to 
only what the commander says he wants.
    And he has told us--his commander, as well as the commander 
who will be commanding the brigade, the division commander, the 
vice chief of staff had the chief of staff have all conferred 
to say this is better than what we have, and it is at least as 
safe as what we currently have.
    Mr. Abercrombie. Well, why is it then----
    Secretary Bolton. Because in order to do that full-up test 
for DOT&E, I need a full brigade that is not deploying. It has 
got to be in place to run every part of the test.
    Mr. Abercrombie. Well, is this going to be standard way of 
doing it in the future?
    Secretary Bolton. I am working with the DOT&E director 
right now, because I have had to postpone other testing because 
when I got to the place to do the testing, that brigade was 
deployed and I couldn't do the test.
    And so we are trying to find a way--how can we do the----
    Mr. Abercrombie. Is the tempo of the deployments pushing 
you?
    Secretary Bolton. Yes, sir.
    Mr. Abercrombie. Okay. You understand my----
    Secretary Bolton. But not pushing us to the place where we 
are deploying anything----
    Mr. Abercrombie. I am not going to dispute your answer. I 
think that under the circumstances what you answered me makes 
operational sense.
    Secretary Bolton. Yes, sir.
    Mr. Abercrombie. But it is still not the way we would 
prefer to do this according to the Pentagon's own standards. Is 
that a fair statement?
    Secretary Bolton. Yes, sir. That is true. That is very 
fair. That is very fair.
    Mr. Abercrombie. The reason I am asking--I hope this 
doesn't get to be the way we are going to start doing things, 
because sooner or later--maybe with this particular vehicle and 
this particular configuration, you can do that.
    But we can't be deployment-driven in terms of testing. 
Wouldn't you agree, on the whole? Maybe in this circumstance--
--
    Secretary Bolton. We have had a number of circumstances 
where we have done that. JNN is another example of that.
    Mr. Abercrombie. Okay.
    Secretary Bolton. And what we are trying to do--because I 
started in this business as a tester 30 years ago, and what I 
have asked my----
    Mr. Abercrombie. I remember that.
    Secretary Bolton [continuing]. During time of war, we have 
got to figure out how to do the testing you want while we are 
still deploying, and change some of our processes to make that 
happen.
    But your comments are exactly right on.
    Mr. Abercrombie. Yes, but that is going to have to be 
circumstance-specific.
    Secretary Bolton. Yes, sir. I agree.
    Mr. Abercrombie. Like I would not say that that was 
acceptable if we were dealing with the helicopters. That is not 
the way it is going to work, and perhaps in other instances. 
But this is another example. Okay.
    You understand my reason for me asking the question.
    Secretary Bolton. Yes, sir.
    Mr. Abercrombie. I don't want it on my record that I was 
aware of something that hadn't gone through the standard 
testing and said, ``Well, that is okay.'' I need to ask and 
find out.
    Secretary Bolton. Absolutely.
    Mr. Abercrombie. So you take responsibility for that.
    Secretary Bolton. Yes, sir.
    Mr. Abercrombie. All right.
    General Curran, do you understand that?
    General Curran. Sir, I do understand it, and we have 
participated in the process fully----
    Mr. Abercrombie. Okay.
    General Curran [continuing]. As a user's rep.
    Mr. Abercrombie. Do you understand the reason for my 
question?
    General Curran. Absolutely. And I am very confident of what 
the Army has done to test those vehicles for safety of the 
soldier within the bounds of what that platform is going to be 
asked to do in this environment.
    Mr. Abercrombie. Okay. Then the last thing I have--this 
goes to air transport and vehicle weight. The original proposal 
for Future Combat System manned ground vehicles--my 
information, if I remember correctly, was about 19 tons, maybe 
less.
    This goes way back several years now. I remember the 
arguments--not so much the arguments, but the questions about 
even sizes of vehicles, let alone weight, with regard to the C-
130.
    But my understanding is that the latest estimate of the 
vehicle average weight is as much as 27 tons, considerably more 
than 19. I am not quite sure of the dimensions, how that works. 
I simply don't have that information in front of me.
    But on the weight question, there is a couple of things, 
then. Is it the Army's goal now for the weight of fully 
equipped FCS ground vehicles at this stage around 27 tons?
    And how will this weight compare to Stryker combat vehicles 
in service today? I don't remember what that--that is heavier, 
I believe, and considerably.
    General Curran. Yes, sir.
    Mr. Abercrombie. And if that is the case, in terms of air 
mobility, what additional capability will the Future Combat 
System brigades give the Army that are not resonant in the 
Stryker brigades in operation today that are designed for the 
C-130 transport?
    In other words, the C-130 transport can be used today for 
the existing vehicles, correct?
    Secretary Bolton. It could be. It hasn't been.
    Mr. Abercrombie. Well, but it could be.
    Secretary Bolton. It could be.
    Mr. Abercrombie. Yes, because I am trying to think of--we 
were told this in the beginning that there is going to be an 
air--in other words, that the Air Force and the Army would be 
working together to the degree that the FCS, Future Combat 
System, vehicles and Air Force capabilities could be 
compatible.
    In other words, the mission for the FCS--the mission for 
the Stryker--and the Air Force capabilities could be 
compatible. That was going to be attempted.
    And now what I am asking is given where you are now with 
the Future Combat System, the Strykers and air combat, is it 
still compatible? And if not, what do you propose to do?
    Secretary Bolton. There is a KPP on transportability that 
does not address the 130. There is a requirement underneath 
that that has a threshold or an objective of 130.
    We cannot meet the 130. We do not have a waiver from the 
Air Force on that for the Future Combat System. As you have 
already pointed out, it is too heavy. We have maintained a box 
size of the 130 to size the vehicle, but the vehicle itself is 
heavier.
    But we are putting three of these on a C-17.
    Mr. Abercrombie. Okay.
    Secretary Bolton. So we could transport them that way.
    Mr. Abercrombie. Does that have a fiscal effect budgeting? 
And how is it taken into account in the DOD authorization bill 
for this year, if it is?
    Secretary Bolton. I couldn't answer the last question. On 
transportability, the other aircraft--for example, the 17s or 
130s--I don't have that information.
    Mr. Abercrombie. The question I am asking is does this have 
a fiscal impact, the fact that the weight no longer is going to 
be--I mean, is going to create a different set of logistical 
problems vis-a-vis the C-130 and then the C-17.
    Secretary Bolton. I don't see a fiscal impact there because 
this vehicle is heavy. Because we have no C-130 key performance 
parameter in the FCS, all the others are tradeable if you can't 
do that.
    With the KPPs, if you don't make one of those, that is 
cause for----
    Mr. Abercrombie. Do you have enough C-17s?
    Secretary Bolton. Three of them on the 17.
    Mr. Abercrombie. I beg your pardon?
    Secretary Bolton. Three of them can be put on the C-17.
    Mr. Abercrombie. Yes, but I am saying did you take into 
account, then, that the likelihood of transportation will have 
to be with C-17s? The C-17s, no doubt, have been put into 
service with certain missions involved.
    That has been taken into account, is what I am driving at. 
Do we need more of them? Or with the deployment--General 
Curran, you understand that I am driving at?
    General Curran. Yes, sir. In fact, I participated with the 
Air Force before this committee a couple of weeks ago where we 
flew through this.
    And those studies are ongoing between the Air Force and the 
Army and the U.S. Transportation Command (TRANSCOM) about, you 
know, what is the right lift size requirement that the Air 
Force needs to pursue based upon its support to not only FCS 
but then in also a potentially larger Army and Marine Corps.
    And so they tested----
    Mr. Abercrombie. Yes, and if they are required for a 
deployment, right, then they have to--the air transport has to 
be available.
    General Curran. It does. And I might add, too, that we are 
now working with TRANSCOM in a study on what future air lift is 
being developed that will also support FCS.
    Mr. Abercrombie. Could you say that for me again?
    General Curran. We are working with TRANSCOM about what 
future air lift requirements may be--in terms of platforms--to 
support FCS and the joint forces operational concept for the 
future.
    Mr. Abercrombie. Is this a formal contact, or is this 
informal?
    General Curran. No, this is formal.
    Mr. Abercrombie. Okay.
    General Curran. Sir, it is a Tactical Airborne Controller 
Aircraft (TACA) study.
    Mr. Abercrombie. Do you have a time frame?
    General Curran. When they will deliver that--it is in 
process, sir. I will get that for you for the record when that 
will be delivered.
    Mr. Abercrombie. The report.
    General Curran. The report to TRANSCOM commander, yes, sir.
    Mr. Abercrombie. Okay.
    Mr. Francis. Mr. Chairman, may I make a couple traffic cop-
type comments?
    Mr. Abercrombie. Sure. And then we will conclude with that, 
if it is okay with everybody.
    Mr. Francis. Yes, I know you are out of time. But I just 
want to make sure our understanding is not too ductile about 
what FCS is about here. It is a revolutionary system. The spin-
outs have an evolutionary character, but I would consider them 
to be harvesting of low-hanging fruit. They aren't the heart 
and soul of FCS.
    So they are going to give us some capabilities, but FCS is 
going to be a revolutionary capability, and we are not going to 
see that until after 2013. So I don't want us to misunderstand 
that.
    And I want to come back to--one of the first comments Mr. 
Johnson made was the question about SINCGARS. One of the 
reasons we are buying SINCGARS is because the JTRS radio is 
late.
    We were optimistic about what it could do. It has taken 
longer. So we are having to buy more legacy radios. So while 
JTRS is here in partial form, we were optimistic about it.
    Another question came up about the JNN, the Joint Network 
Node, which we are buying kind of as an emergency buy.
    One of the reasons we are buying that is the Warfighter 
Information Network we were also optimistic about and haven't 
been able to deliver it. So now we are buying more off-the-
shelf type of equipment to make up for that.
    I only offer that up as a little bit of sobering 
perspective about--there is often a difference between what we 
think we can do and what we can actually do.
    Mr. Sestak. Mr. Chairman, may I ask one question of Mr. 
Francis?
    Mr. Abercrombie. Sure.
    Mr. Sestak. Mr. Francis, you know, you mentioned the 
SINCGARS, JTRS, the joint network and the various systems, and 
watching them come on and whether you are going to be able to 
talk to JTRS and F-18s or whether you are going to be able to 
do it among various units.
    Is there a different procurement or acquisition, excuse me, 
approach we should be taken where you centralize the funding in 
Joint Staff or OSD, in what is really the transformational 
aspect of the future, particularly when you look at what FCS is 
really about, to take all that from the services and place it 
in Joint Staff?
    Every system seems to overlap, and you are buying legacies 
to fit this as you go forward.
    Mr. Francis. Yes. I don't know that we could eliminate that 
completely, and I think we have tried joint acquisitions, which 
I haven't given up on, but they have tended to be additive, so 
we would--let's take Joint Strike Fighter. We will have three 
variants of that to try to meet everyone's need.
    I think the greatest efficiency--and I will defer to my 
colleagues here--comes from joint requirements. It may be that 
solutions have to be tailored to individual needs.
    But if we can get the requirements conceived jointly up 
front with the military strategy, then I think there is less 
occasion to have isolated and overlapping acquisitions.
    Mr. Abercrombie. We intend to follow up on this area of how 
we do, maybe, you know, operational funding and capital funding 
and asset acquisition and so on, in another context, in another 
hearing. It is a good point.
    I am going to have to conclude things at this juncture. 
This has been a good hearing. We had good briefings ahead of 
time. I am very appreciative.
    And speaking on behalf of all the members of the 
subcommittee, thank you for all of the efforts that have been 
made to this point. We would appreciate the follow up on for-
the-record indications coming as soon as possible.
    And if you can get to the individual members, too, to whom 
it was made as well as to myself and Mr. Saxton, I would be 
grateful.
    Anything else at this juncture?
    With that, I will say aloha and thank you. Aloha.
    [Whereupon, at 12:22 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 27, 2007

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 27, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T3666.001
    
    [GRAPHIC] [TIFF OMITTED] T3666.002
    
    [GRAPHIC] [TIFF OMITTED] T3666.003
    
    [GRAPHIC] [TIFF OMITTED] T3666.004
    
    [GRAPHIC] [TIFF OMITTED] T3666.005
    
    [GRAPHIC] [TIFF OMITTED] T3666.006
    
    [GRAPHIC] [TIFF OMITTED] T3666.007
    
    [GRAPHIC] [TIFF OMITTED] T3666.008
    
    [GRAPHIC] [TIFF OMITTED] T3666.009
    
    [GRAPHIC] [TIFF OMITTED] T3666.010
    
    [GRAPHIC] [TIFF OMITTED] T3666.011
    
    [GRAPHIC] [TIFF OMITTED] T3666.012
    
    [GRAPHIC] [TIFF OMITTED] T3666.013
    
    [GRAPHIC] [TIFF OMITTED] T3666.014
    
    [GRAPHIC] [TIFF OMITTED] T3666.015
    
    [GRAPHIC] [TIFF OMITTED] T3666.016
    
    [GRAPHIC] [TIFF OMITTED] T3666.017
    
    [GRAPHIC] [TIFF OMITTED] T3666.018
    
    [GRAPHIC] [TIFF OMITTED] T3666.019
    
    [GRAPHIC] [TIFF OMITTED] T3666.020
    
    [GRAPHIC] [TIFF OMITTED] T3666.021
    
    [GRAPHIC] [TIFF OMITTED] T3666.022
    
    [GRAPHIC] [TIFF OMITTED] T3666.023
    
    [GRAPHIC] [TIFF OMITTED] T3666.024
    
    [GRAPHIC] [TIFF OMITTED] T3666.025
    
    [GRAPHIC] [TIFF OMITTED] T3666.026
    
    [GRAPHIC] [TIFF OMITTED] T3666.027
    
    [GRAPHIC] [TIFF OMITTED] T3666.028
    
    [GRAPHIC] [TIFF OMITTED] T3666.029
    
    [GRAPHIC] [TIFF OMITTED] T3666.030
    
    [GRAPHIC] [TIFF OMITTED] T3666.031
    
    [GRAPHIC] [TIFF OMITTED] T3666.032
    
    [GRAPHIC] [TIFF OMITTED] T3666.033
    
    [GRAPHIC] [TIFF OMITTED] T3666.034
    
    [GRAPHIC] [TIFF OMITTED] T3666.035
    
    [GRAPHIC] [TIFF OMITTED] T3666.036
    
    [GRAPHIC] [TIFF OMITTED] T3666.037
    
    [GRAPHIC] [TIFF OMITTED] T3666.038
    
    [GRAPHIC] [TIFF OMITTED] T3666.039
    
    [GRAPHIC] [TIFF OMITTED] T3666.040
    
    [GRAPHIC] [TIFF OMITTED] T3666.041
    
    [GRAPHIC] [TIFF OMITTED] T3666.042
    
    [GRAPHIC] [TIFF OMITTED] T3666.043
    
    [GRAPHIC] [TIFF OMITTED] T3666.044
    
    [GRAPHIC] [TIFF OMITTED] T3666.045
    
    [GRAPHIC] [TIFF OMITTED] T3666.046
    
    [GRAPHIC] [TIFF OMITTED] T3666.047
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 27, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T3666.048
    
    [GRAPHIC] [TIFF OMITTED] T3666.049
    
    [GRAPHIC] [TIFF OMITTED] T3666.050
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             March 27, 2007

=======================================================================

      
                 QUESTIONS SUBMITTED BY MR. ABERCROMBIE

    Mr. Abercrombie. For the FCS program, at the time of budget 
submission for each of the fiscal years FY04 to FY08, please provide 
(1) the structure of the overall FCS program assumed, in terms of the 
number of programs, e.g., ``18+1,'' (2) the estimated acquisition cost 
of FCS in TYS, (3) the estimated IOC, (4) the estimated BCT fielding 
rate/year by FY, and (5) the estimated FCS BCT completed fielding date.
    Secretary Bolton and General Curran. [See table below.]


------------------------------------------------------------------------
                        FY04       FY05       FY06      FY07      FY08
                       Budget     Budget     Budget    Budget    Budget
------------------------------------------------------------------------
Program Structure    Systems:   13+1       18+1       18+1      14+1
                      13+1
------------------------------------------------------------------------
Est Acq Cost         $92.2B     $92.7B     $161.4B    $164.6B   $161.9
TY$                  Milestone  Dec 03     ARMY POM   Dec 05    Dec 06
                      B          SAR                   SAR       SAR
------------------------------------------------------------------------
Est IOC              Dec 2010   Dec 2010   Dec 2014   Dec 2014  Jun 2015
------------------------------------------------------------------------
Est BCT fielded/per  2/yr       2/yr       1.5/yr     1.5/yr    1/yr
------------------------------------------------------------------------
Est FOC              Dec 2012   Dec 2012   Dec 2016   Dec 2016  Jun 2017
------------------------------------------------------------------------
Spin-outs being      NA         NA         4          4         3
developed:
------------------------------------------------------------------------

------------------------------------------------------------------------


    Mr. Abercrombie. For the FCS program, at the time of budget 
submission for each of the fiscal years FY04 to FY08, please provide 
(1) the structure of the overall FCS program assumed, in terms of the 
number of programs, e.g., ``18+1,'' (2) the estimated acquisition cost 
of FCS in TYS, (3) the estimated IOC, (4) the estimated BCT fielding 
rate/year by FY, and (5) the estimated FCS BCT completed fielding date.
    Dr. Finley. The Office of the Assistant Secretary of the Army for 
Acquisition, Logistics and Technology, The Army Staff and the Army 
Training and Doctrine Command have identified the number of FCS 
programs to be fielded by year, estimated acquisition costs and the FCS 
fielding plan in the attached matrix. The Office of the Under Secretary 
of Defense for Acquisition, Technology and Logistics concurs with the 
Army answer.
    Mr. Abercrombie. Will the ground station envisioned for FCS UAVs be 
compatible with and able to receive all data from non-FCS Army UAVs, 
including Warrior, I-GNAT, Hunter, and Shadow?
    Secretary Bolton and General Curran. The FCS and modular force 
Unmanned Aircraft System (UAS) datalink and network architectures are 
markedly different and could not interoperate if left on their current 
acquisition trajectories. However, the Army Aviation Warfighting Center 
(USAAWC) recently determined that Army Aviation will robustly 
interoperate with the FCS network and battle command as they emerge in 
the next decade. Requirements definition is under way within Army 
Training and Doctrine Command (TRADOC) to ``bridge the gap.''
    The Army Aviation UAS Programs of Record, Extended-Range Multi-
Purpose UAS (Warrior Block 1) and Shadow, will have additional 
requirements for FCS interoperability. The Army will divest Hunter, I-
GNAT, and Warrior Alpha as the Warrior Block 1 systems are fielded. As 
FCS interoperability technical solutions are developed, the Army will 
upgrade the current Warrior Block 0 fleet to Warrior Program of Record 
configuration.
    PM UAS and PEO Aviation will work with TRADOC, USAAWC, FCS, and 
Army leadership to plan and execute programs to incorporate these 
emerging requirements and determine the resources required in the FY10-
15 POM.
    Mr. Abercrombie. Will the ground station envisioned for FCS UAVs be 
compatible with and able to receive all data from non-FCS Army UAVs, 
including Warrior, I-GNAT, Hunter, and Shadow?
    Dr. Finley. The Office of the Assistant Secretary of the Army for 
Acquisition, Logistics and Technology, The Army Staff and the Army 
Training and Doctrine Command have addressed the interoperability of 
Future Combat Systems and modular force Unmanned Aircraft Systems in 
the attached document. The Office of the Under Secretary of Defense for 
Acquisition, Technology and Logistics concurs with the Army answer.
    Mr. Abercrombie. What are the complementary FCS R&D programs and 
projects (by name, PE, and amount) in the FY 2008 budget request?
    Dr. Finley. The Office of the Assistant Secretary of the Army for 
Acquisition, Logistics and Technology, The Army Staff and the Army 
Training and Doctrine Command have addressed the complementary Future 
Combat Systems programs and projects in the attached document. The 
Office of the Under Secretary of Defense for Acquisition, Technology 
and Logistics concurs with the Army answer.
    Mr. Abercrombie. What are the complementary FCS R&D programs and 
projects (by name, PE, and amount) in the FY 2008 budget request?
    Secretary Bolton and General Curran. The following programs are FCS 
complementary programs with funding in the FY 2008 budget request. 
Complementary programs are defined as programs of record that are 
distinct from the core FCS family of systems, but essential to the FCS 
family of systems in meeting its key performance parameters as outlined 
in the operational requirements document.



                                                                                                         PB08
                            Program Name                               Appropriation      Program      Funding
                                                                                          Element        ($K)

Airborne Standoff Minefield                                                   RDTE         0604808A       25,487
                                                                                                415
Detection System (ASTAMIDS)                                                    OPA           S11500       11,708

Army Training Information                                                      OMA           324731        1,000
Architecture (ATIA)

Battle Command Sustainment                                                    RDTE        643805091       19,054
Support System (BCS3)                                                          OPA        W34600000       32,935

Common Training                                                               RDTE         0604715A        7,731
                                                                                                214
Instrumentation Architecture

Precision Guidance Kit (PGK)                                                  RDTE        654802S36       20,606

Distributed Common Ground                                                     RDTE        375208D07       34,632
System - Army (DCGS-A)                                                                    375208D06       24,515
                                                                                          375208D08       10,826
                                                                                           37508956       10,941
                                                                               OPA        BZ7316000      114,842

CL IV Electro-Optical/                                                        RDTE       375204 11A       40,500
Infrared/Laser Designator                                                      OPA           B00302       38,400
(EO/IR/LD)

Excalibur (XM982)                                                             RDTE         0604814A       63,039
                                                                              AMMO           E80103       28,781

FCS platform to non-FCS                                                       RDTE         0604817A       11,450
                                                                                                482
Platform Combat ID                                                             OPA           BA0510        4,228

Fire Finder Radar AN/TPQ-                                                     RDTE        654823L88       69,342
36/37                                                                          OPA           BZ7325       41,500

Forward Area Air Defense                                                      RDTE         0604741A        1,340
Command, Control, and                                                          OPA        AD5050000        9,000
Intelligence System (FAAD C2I)

Global Combat Support System -                                                RDTE         0303141A       89,263
Army (GCSS-A)                                                                  OPA           W00800       14,864

Ground Standoff Minefield                                                     RDTE           64808A       21,625
Detection System (GSTAMIDS)

Joint Biological Point Detection                                               OPA         028384BP       77,800
System (JBPDS)

Joint Chemical Agent Detector                                                 RDTE        0604384BP       11,800
(JCAD)                                                                         OPA         028384BP       33,900

Net-Enabled Command                                                           RDTE       373158/714       10,400
Capability (NECC)

Joint Service Lightweight Stand-                                               OPA         028384BP       16,400
Off Chemical Agent Detector
(JSLSCAD)

Joint Tactical Radio Systems                                                  RDTE        0604805N:      236,400
                                                                                               3074
Ground Mobile Radios (JTRS
GMR)

Joint Tactical Radio Systems                                                  RDTE        0604805N:      106,300
                                                                                               3075
Handheld, Manpack & Small
Form Fit (JTRS HMS)

Joint Warning and Reporting                                                   RDTE        0604384BP       23,900
Network (JWARN)                                                                OPA         028384BP        6,700

                                                                              RDTE        654823L86        7,926
                                                                               OPA        B05201000       43,893

Lightweight Counter Mortar
Radar (LCMR)

Lightweight Laser Designator                                                  RDTE        654710L76        1,500
Range Finder (LLDR)                                                            OPA        K31100000       93,986

Lightweight Water Purifier                                                    RDTE         0603804A          700
                                                                                                L41
(LWP)                                                                                      0603804A
                                                                                                K41
                                                                               OPA           R67000        8,477

Load Handling System Water                                                     OPA        R38100000        4,420
Tank Rack (Hippo)

Medical Communications for                                                    RDTE        655013193        7,802
Combat Casualty Care (MC4)                                                     OPA        MA8046000       19,525

Meteorological Measuring Set -                                                 OPA           K27900        8,000
Profiler (MMS-P)

Mid Range Munition (MRM)                                                      RDTE           63639A       44,578

One Semi-Automated Forces                                                     RDTE         0604760A       12,909
                                                                                                C78
(OneSAF)                                                                       OMA        121014000        5,177

One Tactical Engagement                                                       RDTE         0604715A       23,198
                                                                                                241
Simulation System (OneTESS)

Sentinel Phased Array Radar                                                   RDTE       654820/E10        7,067
(AN/MPQ-64)                                                                    OPA           WK5057       20,885

Synthetic Aperture                                                            RDTE       375204 11A   See EO/IR/
                                                                                                        LD Line.
Radar/Ground Moving Target                                                     OPA           B00302         Both
                                                                                                      technology
Indicator (SAR/GMTI) Payload                                                                         efforts are
                                                                                                            in a
                                                                                                     basket line

Synthetic Environment Core                                                    RDTE         0604780A       23,745
                                                                                                582
(SE-Core)

Unit Water Pod System (Camel)                                                 RDTE         0604804A        1,500
                                                                                                L41
                                                                               OPA           R38101        5,100

Warfighter Information Network                                                RDTE        643782355      222,296
- Tactical (WIN-T)



    Mr. Abercrombie. What are the technical differences between the 
FY07 actual and FY08 projected buys of SINCGARs radios? What other 
contractual differences are envisioned in those procurements, and what 
are the comparable unit costs of the FY07 and FY08 procurements?
    Dr. Finley. The Office of the Assistant Secretary of the Army for 
Acquisition, Logistics and Technology, The Army Staff and the Army 
Training and Doctrine Command have addressed the perceived differences 
in the SINCGARS radio in the attached document. The Office of the Under 
Secretary of Defense for Acquisition, Technology and Logistics concurs 
with the Army answer.
    Mr. Abercrombie. What are the technical differences between the 
FY07 actual and FY08 projected buys of SINCGARs radios? What other 
contractual differences are envisioned in those procurements, and what 
are the comparable unit costs of the FY07 and FY08 procurements?
    Secretary Bolton and General Curran. There are no technical 
differences in SINCGARS radios (i.e. Receiver-Transmitters) procured in 
FY07 and FY08. Unit costs of $7 thousand then year dollars in fiscal 
year 2007 and $10 thousand then year dollars in FY08 and FY09 are due 
to the varying configurations of the radio being procured. The unit 
costs include the cost of the Receiver Transmitter (RT) Vehicular 
Amplifier Adapter (VAA) and Power Amplifier (PA). More capable 
configurations of SINCGARS (i.e. Dual R/T, PA and VAA) result in a more 
expensive radio. The Army is procuring more ``high end'' configurations 
in FY08-09.
    Mr. Abercrombie. How many JTRS radios and of what type are fielded 
in operational units at the present time?
    Secretary Bolton and General Curran. There are currently no JTRS 
radios fielded to operational units. The Army projects initial fielding 
in FY11. The Army delivered approximately 50 pre-Engineering 
Development Models (EDM) to the FCS program for use in the Limited User 
Test (LUT).
    Mr. Abercrombie. How many JTRS radios and of what type are fielded 
in operational units at the present time?
    Dr. Finley. As of March 27, 2007, at the time of your request, 
there were no JTRS radios fielded in operational units in the Army, 
Navy, Air Force or the Marine Corps.
    Mr. Abercrombie. What percent of the Army's FY08 supplemental 
procurement request was rejected by the Office of the Secretary of 
Defense (OSD)? In addition please provide this amount in dollars?
    Secretary Bolton. The Army worked with OSD to develop FY 2007 and 
FY 2008 GWOT Requests that met the most critical priorities of the Army 
and that were executable.
    Mr. Abercrombie. What affect will this have on the Army's ability 
to prosecute ongoing operations throughout the world?
    Secretary Bolton. The Army is resourced with budget and wartime 
supplemental funding to execute the current OIF/OEF fight. Resources 
continue to fall short of the level the Army believes is necessary to 
implement the full strategy outlined in the 2005 QDR. The Army outlined 
specific areas of risk in the recent Chairman's Risk Assessment 
submitted with the President's Budget in February 2007.
    Mr. Abercrombie. Did OSD provide a rationale to the Army for these 
program funding rejections?
    Secretary Bolton. The FY 2008 GWOT request was an estimate at a 
point in time and the Army and OSD will continue to work together to 
address any potential additional FY 2008 requirements. Given the large 
numbers of programs included in Army budget submissions, OSD does not 
generally provide line item rationale for every funding decision in 
which it is involved.
    Mr. Abercrombie. How much funding is programmed for Reserve 
Component (RC) equipment reset across the Future Years Defense Program 
(FYDP)? Could the Army obligate and execute on additional funds?
    Secretary Bolton. Reset funding is not programmed across the FYDP 
but based on equipment that was actually destroyed, damaged, stressed, 
or worn out during operations and requested as part of the Global War 
on Terrorism appropriations. The Fiscal Year 2007 (FY07) Appropriations 
Act provided $3.5 billion to the Reserve Component for Reset to include 
replacing Homeland Defense and Homeland Security items such as trucks, 
radios, engineering equipment, trailers and generators that were left 
in Theater to support deploying forces.
    At pre-surge levels our estimated overall future Reset requirements 
were $13-14 billion a year (plus 2-3 years each year beyond the 
cessation of the current conflict). The increasing requirements for 
Army units in Iraq and Afghanistan will increase Reset requirements, 
which we currently estimate to be an additional $2.5 billion to $3.5 
billion a year.
    The Army strives to strike the best balance between the competing 
needs of the Army as a whole and the total funding available. The Army 
has programmed $36.8 billion for new equipment procurement for the Army 
National Guard from FY05 to FY13 and $10.67 billion for the Army 
Reserve. While we acknowledge that this will still leave equipping 
holes to fill across the Army beyond 2013, it brings the RC to an 
equipping level that allows it to better manage risk in terms of cross-
leveling equipment to deploying units while still maintaining the 
capability to mobilize, train, and respond to homeland defense and 
security missions.
    Mr. Abercrombie. What is the current small arms acquisition 
strategy for the Army? Please discuss handguns, carbines, rifles, and 
machine guns.
    Secretary Bolton. The current strategy for handguns, carbines, 
rifles and machine guns is to continue to procure, overhaul, and 
support the current fleet of weapons in the field. These weapons are 
combat proven to be effective and reliable when employed and maintained 
properly. The Army is about to field a new 40mm grenade launcher, a new 
under-barrel shotgun and a new 7.62 sniper rifle. Additionally, the 
U.S. Army Infantry Center (USAIC) is conducting a Small Arms Capability 
Based Assessment (CBA) with the goal of completing the work this 
summer. The CBA may identify capability gaps that can only be addressed 
through materiel solutions. The approved CBA will provide the 
analytical underpinning for all potential new small arms requirement 
documents. The CBA will also support USAIC development of the Army's 
updated Small Arms Strategy.
    Mr. Abercrombie. Does the Army plan to revisit its carbine 
requirement and review new systems for use such as the Heckler & Koch 
(H&K) 416 model?
    Secretary Bolton. The Army does not plan to review new systems 
unless the results of an ongoing capabilities based assessment (CBA) 
identifies an associated capability gap that can only be addressed by a 
new materiel solution. The M4 Carbine is a reliable weapon design that 
meets or exceeds its requirements and has the confidence of an 
overwhelming majority of Soldiers according to recent post deployment 
interviews and surveys. According to a Center of Naval Analysis survey 
of 917 Soldiers that had recently carried the M4 in combat, 89 percent 
reported overall satisfaction with the weapon and only 1 percent 
recommended the M4 be replaced. The M4 has consistently been the 
individual weapon of choice among Soldiers. The U.S. Army Infantry 
Center at Fort Benning, the Army's proponent for small arms, is 
conducting the CBA to determine small arms capability gaps and to 
provide the analysis supporting necessary small arms weapons 
requirement documents. This CBA covers all individual and crew served 
weapons capabilities.
    Mr. Abercrombie. What is the current unit cost of an M4 Carbine? 
How does this unit cost compare to the H&K 416 carbine currently being 
procured and distributed to the Special Operations Forces community?
    Secretary Bolton. The current contract negotiated cost of an M4 
Carbine is $1169.48, which includes several accessories that were not 
included prior to 2003. A recent verbal quote from H&K USA for a 
comparable version of the H&K 416 Carbine was $1175.00.
    The M4 Carbine has always come with a technical manual, sling, one 
magazine and a blank firing adapter. Since 2003, the M4 accessories 
issued have also included an additional six magazines, a rifle cover, a 
magazine cover, and a muzzle cap. Starting in 2006, the Auxiliary Rail 
System (ARS) and the Back-Up Iron Sight (BUIS) have been included in 
the negotiated price for the system. The H&K 416 already includes the 
ARS and the BUIS, but additional magazines and covers would have to be 
negotiated with the vendor.
    Mr. Abercrombie. What is the Army doing with respect to developing 
flame retardant clothing? The Marine Corps is fielding a flame 
retardant clothing system called FROGs. Does the Army have a similar 
program?
    Secretary Bolton. Currently, the Army is fielding Flame Resistant 
(FR) Army Combat Uniforms, FR gloves, and FR balaclavas to Soldiers in 
Afghanistan and Iraq. Additionally, the Army collaborated with the U.S. 
Marine Corps (USMC) in the development of the Flame Resistant 
Operational Gear (FROG) system. The Army has established a Flame 
Resistant Environmental Ensemble (FREE) program that incorporates 
lessons learned from the USMC FROG system. The FREE provides a multi-
layered ensemble of FR and environmental protection providing head-to-
toe coverage for the Soldier.
    Mr. Abercrombie. Is the Army experiencing a high rate of weapon 
jamming because of the particular gun lubricant being issued by the 
service?
    Secretary Bolton. There are no significant weapons jamming problems 
in Iraq or Afghanistan. Commanders and Senior Non Commissioned Officers 
there now or with past experience have been queried by Army Materiel 
Command Field Support Brigade personnel, Research Development and 
Engineering Command (RDECOM) Senior representatives deployed to Multi-
National Force-Iraq (MNF-I), and RDECOM's CSM, who has visited units in 
theater. Weapons cleanliness is highlighted as the major item of 
concern, not the poor performance of cleaner, lubricant, and 
preservatives (CLP). As recently as 18 March 2007, BG Steve Anderson, 
MNF-I DCS Resources & Sustainment, wrote that ``There is no systemic 
weapon jamming problem in this theater.''
    Mr. Abercrombie. Why did the Army choose to terminate its Precision 
Guided Mortar Munition (PGMM) program?
    Secretary Bolton. The Army had to make difficult budget decisions 
in its fiscal years 2008 to 2013 program process in order to fund 
higher priority programs at essential levels of effort. As a result, 
the Army made the decision to terminate the PGMM program. The Army 
supports the Joint Requirements Oversight Council-approved PGMM 
program; however, it does not have the resources at present to proceed 
further.
    Mr. Abercrombie. Why did the Army choose to terminate its Land 
Warrior program when there is an urgent operational need for this 
capability in the War in Iraq?
    Secretary Bolton. The Land Warrior program is being terminated as a 
result of competing fiscal priorities during the development of the 
Fiscal year 2008 President' Budget. The Land Warrior connects the 
Dismounted Soldier to the current Army Battle Command System. The Army 
Battle Command System network is changing to a new different network 
transport layer architecture and the decision was to invest scarce 
resources in Dismounted Soldier System that uses the new transport 
layer architecture rather than the current architecture as Land Warrior 
does. All lessons learned from Land Warrior will be rolled over into 
the new program, Ground Soldier System.
    The Operational Needs Statement (ONS) is for one battalion of Land 
Warrior capability. The Army is meeting the ONS requirement with the 
4th Battalion, 9th Infantry (4-9 IN BN) currently deployed to Operation 
Iraqi Freedom (OIF) with Land Warrior. The Army is committed to 
supporting Land Warrior with the 4-9 IN BN while deployed.
    The Army is conducting a Milestone C decision to acknowledge the 
maturity of Land Warrior Program and that it met all of its 
requirements and passed its tests. This Milestone C will complete the 
Land Warrior System Development and Demonstration and prepare the 
system for production and fielding should field commanders request this 
capability at a later date, but the system will not proceed into 
production.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SAXTON

    Mr. Saxton. The Army user community has been adamant in its desire 
to have an FCS force that is rapidly transportable by aircraft. Has the 
user community reconciled this desire with the resulting tradeoffs in 
manned ground vehicle survivability? Also, will there ever be an 
adequate supply of airlift capability to make the air transport of FCS 
vehicles in other than extraordinary circumstances?
    General Curran. The Army fights as an integrated unit, not as a 
platform. FCS involves fielding a holistic Brigade Combat Team (BCT) 
capability, not a solitary platform capability. The manned ground 
vehicles (MGVs) are full-spectrum vehicles, neither heavy not light in 
the conventional sense. The Army has to be able to go anywhere on a 
moment's notice; so we cannot continue to just weigh down our vehicles 
with more and heavier armor. Additionally survivability is more than 
just about armor, and is significantly enhanced when, via FCS, Soldiers 
in platforms share a common operational picture of their surroundings. 
Increased awareness of enemy and environment increases Soldier 
survivability and lethality. Protection of Soldiers, ease of transport, 
reduced sustainment, reduced costs and overall survivability are 
primary considerations in development of balanced MGV designs.
    The MGV will provide improved levels of personal protection 
compared to current systems and will approach protection levels 
normally afforded to significantly heavier armored systems. The use of 
armor ``kits'' at less mass and weight allows for armor upgrades that 
will exploit new technological advances and thus allow for more 
efficient ballistic protection. This armor approach coupled with such 
things as a multifunction counter measures and the active protection 
system, will provide a very effective, weight efficient 360 hemispheric 
degree coverage against incoming munitions. The resulting all-around 
protection of the MGV will be equal to or greater than that of an 
Abrams tank or the Bradley Fighting Vehicle.
    Air lift force structure is an issue for US TRANSCOM. It was out of 
concern for the adequacy of airlift that we made FCS Transportability a 
Key Performance Parameter. MGVs are designed to support multi-nodal 
transportability. MGV designs allow variants to be tailored for a 
number of air, ground and sea modes of transport. Bottom Line: FCS is 
designed to exploit the entire range of transport to provide the 
commander the greatest degree of flexibility. The FCS Family of Systems 
will be transportable worldwide by air, sea, highway, and rail modes to 
support inter-theater strategic deployment and intra-theater 
operational maneuver.
    In conclusion, MGVs will be very deployable and able to use air, 
sea, highway, and rail transport. The user community is satisfied with 
the current configuration of the manned ground vehicle. Current designs 
for FCS MGVs provide a suite of protection capabilities greater than 
current force manned ground systems. The user community and the 
materiel developer have and will continue to work together to increase 
the survivability of these platforms while balancing transportability 
as we go through the various design stages. Survivability is no longer 
simply a passive approach or platform centric for sustaining a hit but 
a combination of passive and active protection suites, network provided 
situational awareness, and networked lethality. The Future Combat 
Systems Manned Ground Vehicle family will provide our Soldiers with a 
very deployable combat vehicle that meets the needs of our Soldiers 
(operating in current and future conflicts) wherever they need to go, 
so they can effectively and safely accomplish the mission, and return 
home.
    Mr. Saxton. CBO testified last year before this committee that the 
FCS would not be much more transportable by sea and air than the 
current force? Do you agree with this analysis? If so, what are we 
trying to achieve with FCS?
    General Curran. The Army does not agree with the CBO assessment.
    The FCS Transportability Key Performance Parameter (KPP) states: 
``The FCS Family of Systems must be transportable worldwide by air, 
sea, highway, and rail modes to support inter-theater strategic 
deployment and intra-theater operational maneuver.''
    FCS Family of Systems transportability provides inter-theater 
options for strategic deployment and intra-theater options for 
operational maneuver in order to execute a range of missions within a 
campaign.
    Force Effectiveness Analysis results have shown significant 
enhancement in FCS BCT transportability compared to the current Heavy 
Brigade Combat Team:

        <bullet>  Operational Maneuver by air in OIF scenario, FCS BCT 
        flows in more than twice as fast as a Heavy Brigade Combat Team

        <bullet>  Operational Maneuver by sea in Asia scenario, the FCS 
        BCT closes 43 percent faster than an HBCT and uses 21 percent 
        fewer Joint High Speed Vessels (JHSV) and 10 percent fewer 
        Landing Craft Utility (LCU) than an HBCT

    This capability provides flexibility for entry operations 
(permissive and non-permissive) to counter threat anti-access 
strategies by using multiple air, land, and sea entry points to bring 
in combat configured units. Within the context of theater campaigns, 
operational maneuver by multiple modes facilitates the execution of 
Joint land operations. The multimodal transportability metric is a 
range greater than 250NM at threshold and to a range greater than 500NM 
at objective.
    The Army will develop FCS that meets the transportability KPP. The 
Army FCS One Team is working transportability and other issues, and are 
confident that as the systems mature, FCS will be a capable, viable, 
survivable and responsive family of systems that will ensure the Army's 
victory in future conflicts.
    Mr. Saxton. In light of the Army's recent restructure of the FCS 
program, has the Army user community been able to determine yet if the 
new program of record--14 versus 18 systems--will be adequate to meet 
the Army's needs? Will the FCS program be able to deliver a capability 
that is as good as or better than the current Army force capabilities?
    General Curran. As a result of operational analysis and bounded by 
the fiscal reality of the current environment, we recently made several 
adjustments to the program, which resulted in 14+1 FCS program. We will 
continue to develop the core operational capability envisioned for FCS, 
yet will do so with 14 instead of 18 interconnected systems. The Army 
continues to have an affordable and executable FCS strategy to better 
ensure program success and the delivery of essential capabilities to 
our Soldiers.
    FCS will deliver a capability better than current Army force 
capabilities:

        <bullet>  The FCS BCT is a combined-arms unit of modular 
        organizational design. As part of this design, the FCS BCT is 
        built as an integrated, networked System-of-Systems whose 
        cornerstone is the Soldier.

        <bullet>  The FCS BCT is designed to be self-sufficient for 72 
        hours of high-intensity combat operations, or up to seven days 
        in a low- to mid-intensity environment.

        <bullet>  The FCS BCT uses advanced network architecture to 
        enable levels of Joint connectivity, situational awareness, and 
        synchronized operations capabilities previously unachievable. 
        It is designed to interact with and enhance the Army's most 
        valuable asset--the Soldier. When fully operational, FCS will 
        provide the Army and Joint force with unprecedented visibility 
        and capability to see, engage on our terms and defeat the 
        enemy.

        <bullet>  The FCS BCT is much more strategically deployable 
        than today's heavy forces, and is specifically designed to 
        deploy from operational and strategic distances via ground, 
        sea, and air assets not dependent on improved ports or 
        airfields. This is especially significant in humanitarian 
        relief operations and rapid contingency operations, where the 
        capability to arrive quickly can mean the difference between 
        success and failure.

        <bullet>  FCS capabilities allow Soldiers significant tactical 
        and operational advantages by providing constant awareness of 
        friendly and enemy situations, reducing casualties by expanding 
        the ability to operate across larger areas with fewer Soldiers, 
        and enhancing the ability to defeat IEDs, anti-tank weapons, 
        and small arms.

    The net effect of these design considerations is a BCT with 
exceptional versatility and operational capability and a reduced 
footprint.
    FCS enhances the Current Force as well; early insertions (Spin 
Outs) of advanced FCS capabilities to the Current Force platforms 
provide Soldiers with equipment that reduces operational risk.
    Mr. Saxton. While there are surely technology questions remaining 
to be addressed in the development of the Active Protection System, has 
the Army user community developed the needed concept of operations to 
take advantage of future MS capabilities? Can an APS system be safely 
used when dismounted soldiers are in the vicinity?
    General Curran. The Army places force protection as paramount 
importance, and as such, continues to do everything prudent to provide 
safe and effective capability to our Soldiers and address survivability 
shortfalls. The Army's APS technology development work specifically 
focuses on conducting the analysis, engineering, modeling and 
simulation, and testing necessary to field an effective solution that 
is well suited (operationally suitable and acceptable) for its 
operational environment.
    In concert with the APS development, integration, and test effort, 
the Army will develop appropriate tactics, techniques and procedures 
that will optimize the employment of the APS system, taking into 
account a variety of operational/tactical situations that may involve 
dismounted troops and/or non-combatants. The APS system is designed to 
increase the survivability of the vehicle crew. The FCS APS vertical 
launch architecture is designed to minimize collateral damage to any 
dismounts in the direct vicinity of an APS intercept. Additionally, the 
APS system will have a designed-in feature to provide the vehicle 
commander with the ability to choose (based on prudent risk 
assessment), to ``turn off'' selectable quadrants or sectors of 
coverage (akin to how one adjusts the coverage of a lawn sprinkler) 
around the MGV where dismounted soldiers are operating.
    The FCS BCT employs a holistic approach towards survivability, 
including leveraging the network for improved situational awareness, 
reducing signature management, improving ballistic protection, 
modifying operational tactics that include operations with dismounted 
supported by mounted, and pursuing hit avoidance. Also, the Army is 
standing up the Army Evaluation Task Force (AETF) at Fort Bliss. 
Supported by TRADOC and PM Modeling and Simulations, the AETF will play 
a principal role in the development and refinement of doctrine and the 
TTPs for employment of dismounted soldiers in the vicinity of the MGVs 
equipped with APS. This effort is already underway, and we believe the 
synergy of smart APS design along with appropriate TTPs will enable our 
dismounted soldiers to operate very effectively and safely as a team 
with their APS enhanced MGVs. In conclusion, the Army takes very 
seriously its responsibility to ensure that any system (APS included) 
that what we provide the warfighter is safe, effective, suitable and 
supportable.
    Mr. Saxton. In the Fiscal year 2007 defense authorization, the 
Congress mandated that DOD prepare an independent cost estimate for FCS 
to include the cost of complementary programs. Who is preparing that 
estimate and when will it be delivered to the Congress?
    Dr. Finley. The Institute for Defense Analysis is preparing the 
report on Future Combat System (FCS) costs. It is anticipated the 
report will be delivered in May.
    Mr. Saxton. FCS has been widely recognized as a prime example of a 
program started prematurely in terms of immature critical technologies 
and other issues. With the clear history of cost and schedule problems 
with programs that start without mature technologies, why was FCS 
permitted to start in 2003?
    Dr. Finley. The Future Combat System (FCS) program was permitted to 
start in 2003, with a Milestone B decision, in order to address the 
Army's need to invest in the development of advanced, integrated ground 
combat capability. At that time it was noted that the FCS program, 
while schedule challenged, was not schedule bound. When authorizing the 
transition into SDD, the Department indicated the program must be 
flexible and open to accommodate trades in the system architecture and 
in the individual systems' design, with the ultimate objective of 
providing an effective, affordable, producible, and supportable 
increment of military capability. Due to the complexity of the program, 
the Department applies a disciplined, yet agile, management oversight 
and review process to accommodate emerging Department priorities, to 
surface and resolve issues, and to ensure synchronization of 
complementary systems. Changes have been made to the program since 
2003, such as spinning out maturing FCS capabilities to the current 
force, to address risk areas and target increments of capability for 
delivery.
    To date, the maturing of technologies has not been a schedule 
driver for FCS, although network technologies continue to be a watch 
area for the Department. The Department has conducted two Technology 
Readiness Assessments since the 2003 review and is planning another to 
support a Department program review scheduled subsequent to the FCS 
Preliminary Design Review.
    Mr. Saxton. If FCS program costs have increased over 70 percent 
since it started in 2003, why hasn't the DOD reported to Congress under 
the provisions of the Nunn-McCurdy legislation?
    Dr. Finley. Section 802 of the National Defense Authorization Act 
(NDAA) for Fiscal Year 2006, Public Law 109-163, changed the Nunn-
McCurdy reporting provisions, requiring reporting against the original 
baseline, as well as against the current baseline. This change in the 
law included a one-time provision that required each major defense 
acquisition program that had exceeded its original baseline estimate by 
more than 50 percent as of the date of enactment (January 6, 2006) to 
deem its current baseline as the original baseline. As a result, the 
Future Combat System (FCS) program's 2005 revised baseline became the 
original baseline as of January 6, 2006. No reportable or certifiable 
breaches under section 2433 of title 10, United States Code have 
occurred against this baseline.
    Mr. Saxton. GAO points out that most of the fee will be paid out 
before the real details on FCS performance and cost becomes evident. 
What is the Army's rationale for front-loading the incentive fee 
structure for the FCS lead system integrator?
    Secretary Bolton. The System of Systems (SoS) Critical Design 
Review (CDR) occurs 65% of the way through the FCS Systems Development 
and Demonstration (SDD) contract performance. The successful completion 
of the CDR is a critical milestone during the SDD phase. The completion 
of successful CDR signals that detailed design satisfies the 
performance and engineering requirements of the development 
specification and establishes the detailed design compatibility across 
the multiple platforms. Due to the complexity of the FCS program and 
the numerous challenges associated with integrating the FCS SoS, the 
Program Manager determined that it was necessary and prudent to 
incentivize the upfront SoS engineering activities that lead to a 
robust and successful CDR. Failure to conduct a successful CDR could 
lead to cost increases and schedule delays of the program.
    To ensure successful SoS CDR, the incentive fee events are based on 
significant activities and accomplishment criteria that demonstrate 
progress through the development lifecycle. Each Program Event (PE) is 
decomposed and vertically integrated into Significant Accomplishments 
(SA). Each SA is further decomposed into many Accomplishment Criteria 
(AC), and each AC is further decomposed to Completion Criteria (CC). 
The rationale for breaking down the outcomes to this level was to 
incentivize the establishment of a disciplined structure for performing 
the tasks necessary to develop a fully integrated System of Systems and 
rewarding the implementation and progress by measuring successful 
completion of subcomponent outcomes of the ACs. By virtue of following 
a proven process to build the foundation for FCS, quality is built into 
the program upfront and will result in a successful final outcome.
    Mr. Saxton. In its budget request for fiscal 2008, the Army is 
requesting the first procurement funds for FCS. Those funds are to be 
used to buy long lead items for the NLOS-C and FCS spin out items. Will 
the Army be contracting for those items through the lead system 
integrator (Boeing)? Will that be a sole-source contract? Other than in 
providing the early version of SOSCOE to be used, will Boeing have any 
hands-on role in the production phase?
    Secretary Bolton. The Army anticipates, as reflected in the current 
Acquisition Strategy Report (ASR), awarding sole-source contracts to 
the FCS LSI (Boeing) for Spin Outs 1, 2, and 3 LRIP efforts and the 
Manned Ground Vehicle Initial Platform, the NLOS-C. Beginning in 
FY2008, procurement-funded long lead items will be acquired for the 
NLOS-C effort and for the FCS Spin Out 1 LRIP effort.
    The Army anticipates that during the Full-Rate Production phase of 
the FCS program, the LSI's role will principally be as SoS integrator 
and will be responsible and accountable for system performance in each 
case. Apart from SoSCOE/C4ISR Integration, Boeing will not have a 
significant role in hands-on production in the efforts.
    Mr. Saxton. If FCS program costs have increased over 70 percent 
since it started in 2003, why hasn't the Army reported to Congress 
under the provisions of the Nunn-McCurdy legislation?
    Secretary Bolton. For reporting purposes, FCS program costs have 
not increased by over 70 percent since 2003. The 70 percent figure is 
based upon a selective use of cost data provided to various 
organizations, such as the GAO. In particular, the 70 percent value is 
based upon a comparison of then year dollars, which reflect the impact 
of inflation. Over time, the Army has reduced the number of FCS Brigade 
Combat Teams (FBCTs) procured per year, while retaining the same total 
of 15 FBCTs. This has the effect of pushing procurements into later 
years. While there is some cost growth associated with later 
procurements (due mainly to it taking more years to buy the same 
quantities), the largest proportion of the cost increase is due to 
inflation impacts. As these impacts are beyond the control of the 
program management team, costs are always reported in base year (also 
known as constant year) dollars. Cost deviation criteria exist only for 
costs reported in base year dollars.
    Based on the above, base year acquisition (RDT&E plus Procurement) 
costs related to FCS have grown by about 45 percent since 2003. 
However, previous reports to Congress have shown that increases in cost 
due to true ``growth'' have been about 11 percent. The remainder of the 
cost increase is attributed to programmatic adjustments (such as 
individual platform quantity adjustments and capability enhancements). 
Based on Department of Defense guidelines, these adjustments have 
historically not factored into Nunn-McCurdy determinations. While 
recent legislation has changed the criteria for Nunn-McCurdy 
determinations, the cost increases referenced above occurred during the 
program's FY2005 restructure (prior to the revised legislation).
    Mr. Saxton. When will the Army be making its determination of where 
FCS manned ground vehicles will be produced? How much will those 
facilities cost to build and when will production start?
    Secretary Bolton. In then year dollars, total facilitization costs 
are estimated at $1,895M. Of this amount, $1,179M supports MGV 
facilities. MGV production will be determined once the PM obtains 
approval on the LRIP acquisition strategy. Since it is anticipated that 
most of the production activities will occur in existing MGV 
facilities, majority of facilities costs will be tooling and 
infrastructure.
    Mr. Saxton. Does the Army agree with GAO's position that Boeing is 
accountable for best efforts but not for successful outcomes?
    Secretary Bolton. No. The Army holds the LSI accountable and 
responsible for the total program integration across multiple lower-
tier platforms and subcontracts. While successful outcome may not be 
guaranteed in every contract, under the FCS SDD contract, Boeing's 
entitlement to incentive fee is dependent on its ability to 
successfully meet/complete program events and milestones. Boeing is not 
automatically entitled to any incentive fee under the SDD contract, but 
must earn the incentive fee through successful execution of 
performance. The relevant ``best effort'' language is found in FAR 
52.232-22, Limitation of Funds clause included in the FCS SDD contract. 
Subsection (a) states in part, ``The Contractor agrees to use its best 
efforts to perform the work specified in the Schedule and all 
obligations under this contract within the estimated cost.'' This 
clause is intended to limit the government's cost obligation and to 
ensure Boeing maintains sufficient cost controls to avoid cost 
overruns.
    Further, Boeing is subject to default termination if it fails to 
make sufficient progress under the FCS SDD contract.
    Mr. Saxton. Is the FCS program developing a unique UAV control 
station separate from the control station that the Army and Marine 
Corps have already adopted? If so, why?
    Secretary Bolton. Yes, FCS Concept of Operation (CONOPS) 
requirements and technology for Unmanned Aircraft System (UAS) control 
are significantly different from those adopted by the Army and the 
Marine Corps today. In the FCS construct, any terminal can interface 
with any FCS element through a single network; there are no weapon-
system-unique control stations. Additionally, the networked FCS 
terminals must be capable of operating ``on the move'' while still 
conforming to greatly reduced space, weight, and power constraints.
    In contrast, the One System Ground Control Station (OSGCS) for 
current Army and Marine Corps UASs is dedicated to UAS weapon system 
specific control, thus size, weight, and power constraints are less 
severe. The OSGCS uses Current Force non-networked communication 
equipment for both video and command and control.
    Although the OSGCS is mobile, it is stationary in operation. The 
OSGCS is highly capable for command and control of today's UASs, 
particularly when coupled with One System Video Receiver Terminals 
(OSRVTs). OSRVT is a laptop unit that receives video and telemetry data 
in real time on a moving map, providing enhanced situational awareness 
to current non-UAS equipped units.
    FCS CONOPS requires network control and ``on the move'' operations 
that are not required of the modular force. FCS does not make the 
current OSGCS obsolete, as ``modular force'' systems will continue to 
provide most of the Army capability well beyond the point of full FCS 
fielding.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. JOHNSON

    Mr. Johnson. How many suppliers are there for these radios?
    Secretary Bolton. There are three vendors which have the capability 
to produce SINCGARS interoperable radios: ITT, Harris and Thales. The 
current SINCGARS Indefinite Delivery, Indefinite Quantity contract, 
W15P7T-05-D-J1O1, was awarded competitively in November 2004 to ITT. It 
was a full and open competition; there was only one respondent--ITT.
    In Calendar Year (CY) 2005, the U.S. Army had an urgent operational 
requirement to increase production of SINCGARS interoperable radios to 
6,000 radios per month in support of Operation Iraqi Freedom/Operation 
Enduring Freedom. At that time, ITT indicated it would take at least 12 
months to reach 3,000 radios per month and at least 18-24 months to 
reach the 6,000 radio level of production. To meet this initial urgent 
requirement the U.S. Army was willing to use commercial-off-the-shelf 
(COTS) interoperable radios (i.e. Thales and Harris VRC-1 10/111 
radios) to meet the SINCGARS communications requirement. Approximately 
32,000 COTS radios were procured from Thales and Harris (split 60/40 
respectively). ITT subsequently implemented actions to increase 
production in excess of 6,000 radios per month. The subsequent SINCGARS 
requirements have been met using the ITT contract and the increased 
production capacity has not required the U.S. Army to use COTS radios 
to meet our operational requirements.
    The U.S. Army released a Sources Sought to Industry March 16, 2007, 
to determine if vendors other than ITT (current vendor) could meet 
SINCGARS capability requirements in accordance with the SINCGARS 
Operational Requirements Document. The Sources Sought closed on April 
16, 2007. There were three respondents to the sources sought: ITT, 
Harris and Thales. The U.S. Army is currently evaluating the responses 
to determine if the respondents can meet the Government's requirement 
in the timeframe required.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BISHOP

    Mr. Bishop. Isn't the Future Combat System (FCS) the only real 
major modernization effort at present for the Army? If FCS is not fully 
funded in FY08, won't a consequence be a delay of fielding near-term 
technology to the Army (``spin-outs'') such as unmanned robots for 
Afghanistan and Iraq, as well as long-term efforts for future 
engagements such as new, lighter, but more-survivable manned ground 
vehicles and unmanned systems?
    Dr. Finley. The Future Combat System (FCS) program is the Army's 
major ground modernization program. The Army is involved in a 
transformation. It includes not only the structure of the force and 
personnel, but also of the equipment and systems that are necessary to 
support our 21st century national security goals and missions. A 
critical piece to this transformation effort is the Future Combat 
Systems (FCS). The FCS program is a centerpiece of the department's 
effort to develop a joint warfighting capability to counter the wide 
range of evolving and future threats.
    One consequence of less than full funding in FY08 will be a delay 
in the fielding of the Spin-Out 1 capabilities which include unattended 
ground sensors, the Non-Line of Sight Launch system, and an initial 
network link to those systems into the current force architecture. 
Additionally, development of the FCS brigade components, including 
unmanned air and ground systems, manned ground vehicles, and the 
network will be delayed.
    Continued reductions in funding in the Department's major 
acquisition programs during development seriously jeopardize the 
ability to plan and manage to the program baseline, impacting program 
cost and schedule performance.
    Mr. Bishop. Please describe what you believe to be the most likely 
serious consequences of delays precipitated by less than full-funding 
for the FCS in FY08.
    Dr. Finley. Less than full-funding of the Future Combat System 
(FCS) in FY08 will impact (1) development and testing of the Spin-Out 1 
technologies to increase networking and combat capability for current 
Army brigade combat teams; (2) initial production of the Non-Line of 
Sight cannon prototypes and (3) development and critical 
experimentation for the FCS network, unmanned air and ground systems, 
and manned ground vehicles.
    The FCS program allows the Army to modernize, while bringing 
leading edge technology to the battlefield. The President's FY08 
request of $3.7 billion for FCS funds research, development, testing & 
evaluation of communications, force protection, and mobility equipment 
needed to support current and future operations. FY08 investments 
balance both near-term and long-term modernization requirements.
    Continued reductions in funding in the Department's major 
acquisition programs during development seriously jeopardize the 
ability to plan and manage to the program baseline, impacting program 
cost and schedule performance.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SESTAK

    Mr. Sestak. Is the money to equip these six new brigade combat 
teams with ground programs already in the budget?
    Secretary Bolton. The Army has been given $68.9 billion from fiscal 
year 2008-2013 (FY08-FY13) for growth of the Army. In the FY08 
President's budget, the Army requested $7.7 billion to begin to man, 
equip and train the growth of six infantry brigades and supporting 
forces.
    Mr. Sestak. When you say six new brigade combat teams, you will 
have other units that will have to be stood up to support them, and 
their equipment, and their personnel, correct?
    Secretary Bolton. The Army will increase its end strength by 74.2 K 
across all components by 2013. The growth of six brigade combat team 
(BCT) increases the BCT pool to a total of 76 with associated enabling 
support capabilities. The growth will occur over time with the start of 
the first BCT in fiscal year 2008 and the remaining five between fiscal 
year 2009-2012. The Army will also grow multi-functional and functional 
support brigades increasing to approximately 225 support brigades 
across the force. The growth will allow the Army to increase its 
strategic and rotational depth, increase high demand/low density unit 
capability, mitigate combat support and combat service support 
shortfalls and improve unit dwell periods for all components. Growth of 
the BCTs and support formations will require personnel and equipment 
above the Army's current levels to build these units.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. MEEK

    Mr. Meek. The JNN is the industry's response to a 2004 ``urgent 
needs'' statement from U.S. CentCom to provide communications 
capabilities better than the current MSE in Army units today. The 
requirement was met with commercial off-the-shelf-based equipment using 
a sole source contract. During briefings for the fiscal year 2007 Army 
budget request, the Army indicated that they had met the urgent needs 
requirements and intended to open up the remainder of the JNN contract 
to competition. Yet, later in the year, the Army acquired the next lot 
(lot 9) of the JNN purchase through another sole source contract. This 
means that more than $1.3B worth of JNN has been acquired through sole 
source contracts. There are concerns that the Army will continue to use 
a sole source contract to acquire commercial technology when, in fad, a 
competitive contract will result in a less costly, more technologically 
advanced product. Why does the Army continue to procure the JNN 
platform through a sole source arrangement when the JNN is not a 
program of record and can be acquired from multiple vendors?
    Secretary Bolton. To date the Army has acquired the Joint Network 
Node-Network (JNN-N) under urgent and compelling circumstances under 10 
U.S.C. Sec. 2304(c)(2) and FAR 6.302-2. Only one source has been able 
to meet the production line and delivery requirements of deploying 
units. The JNN-N program is currently in the process of becoming a 
formal program of record. The Army is working with the Office of the 
Secretary of Defense Staff to finalize all required documentation. The 
program is fully funded in the Army's 2008-2013 Program Objective 
Memorandum and is scheduled for the Defense Acquisition Board on May 
14, 2007, for a Milestone C decision. The program office released a 
competitive Request for Proposal on 16 March 2007, proposal receipt 
date of 16 April has past and the program office is currently 
evaluating responses for an anticipated August 2007 award.
    Mr. Meek. What is the Army's rationale for the sole source 
justification and approval documentation?
    Secretary Bolton. The Joint Network Node-Network (JNN-N) has been 
acquired pursuant to unusual and compelling urgency under 10 U.S.C. 
Sec. 2304(c)(2) and FAR 6.302-2. Only one source has been able to meet 
the production and delivery requirements of deploying units. The 
excerpt below is taken directly from one of the justification and 
approval documents which explains the unusual and compelling 
circumstances.
    ``d. Unusual and Compelling Urgency: On 28 July 2006, the Deputy 
Chief of Staff of the Army G-3/5/7, identified an urgent requirement 
for JNN Network Lot 9 to meet classical unit deployments in support of 
OIF and the GWOT. JNN Network Lot 9 is designated as the equipment 
needed to support the following units: 40th Integrated Theater Signal 
Battalion (ITSB), 44th ITSB, 1st Infantry Division (ID), 12th Combat 
Aviation Brigade (CAB) and 214th Fire Brigade (FB), 392nd ITSB, 327th 
ITSB, 72nd ITSB, 504th ITSB, 1st Corps Support Battalion (CSB) Mission 
Essential (ME), 34th CAB, 504th Battlefield Surveillance Brigade 
(BfSB), 1st Armored Division (AD) HQ, 17th FB, 18th FB, 16th 
Sustainment Brigade (SB), 2/1 Brigade Combat Team (BCT), 2ID HQ, 1/2 
BCT, 210 FB, 501st SB, 2ID CAB, 501st BfSB and 304th ITSB. The 
deploying units must be fully trained on this communications equipment 
to ensure their ability to effectively employ it in combat conditions. 
Consequently, delivery of this equipment must commence by September 
2006 in order to be available to provide necessary training time during 
October 2006. Failure to acquire this equipment and associated support 
will reduce Warfighter voice, data, and video networking capabilities. 
These reduced capabilities will impact the ability of Field Grade 
Commanders to provide critically required C4ISR. Failure to provide 
this equipment and support services will significantly impact the 
ability to support OIF and the GWOT, thereby jeopardizing successful 
mission accomplishment. This would increase the risk of serious injury 
or loss of life to Warfighters.''
    Mr. Meek. Competing the JNN platform will likely lead to the 
submission of proposals for JNN solutions that exceed the current 
capability and technical requirements for JNN. In fact it is quite 
likely that a JNN competition could result platforms with WIN-T-like 
capabilities. Does the Army view a JNN competition as a threat to the 
current WIN-T program? Won't the Army realize considerable savings from 
a competition?
    Secretary Bolton. While we do not know what Joint Network Node-
Network (JNN-N) solutions will be proposed as a result of the ongoing 
competition, we do not believe this will threaten the WIN-T program. 
JNN-N is a product we are fielding to meet today's requirements with 
mostly commercial-off-the-shelf equipment. It does not, and will not, 
provide the required capabilities of WIN-T. At this time we do not know 
if there will be a cost savings due to the competition.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. CASTOR

    Ms. Castor. If MRAP is a top priority, why is it on the Unfunded 
Requirement (UFR) list?
    Secretary Bolton and Dr. Finley. There were many competing 
priorities in the FY08 budget. At the time of the budget submission, 
the Mine Resistant Ambush Protection (MRAP) vehicle quantities, 
department wide, were still maturing. The Department continues to take 
actions to adjust the MRAP acquisition plans to provide this enhanced 
crew protection capability to our troops as rapidly as possible. 
Subsequent to the date of the hearing the Secretary of Defense 
identified MRAP as the highest priority Department of Defense 
acquisition program and established an MRAP Task Force with Mr. John 
Young as its Chair. The Task Force is identifying and implementing 
options to accelerate the production and fielding of this capability to 
the theater. The Department has reprogrammed $1.2 billion of FY07 funds 
to procure additional MRAP vehicles and plans amendments to the FY08 
Supplemental budget request to accommodate additional MRAP 
requirements.

                                  <all>

</pre></body></html>
